<html>
<title> - READY TO LEAD? DHS AND THE NEXT MAJOR CATASTROPHE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
           READY TO LEAD? DHS AND THE NEXT MAJOR CATASTROPHE 

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2008

                               __________

                           Serial No. 110-122

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

44-267 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             Christopher P. Carney, Pennsylvania, Chairman

Peter A. DeFazio, Oregon             Mike Rogers, Alabama
Yvette D. Clarke, New York           Michael T. McCaul, Texas
Ed Perlmutter, Colorado              Candice S. Miller, Michigan
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                  (II)





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     3

                               Witnesses

Ms. Wayne Parent, Deputy Director, Office of Operations 
  Coordination, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. William O. Jenkins, Jr., Director, Homeland Security and 
  Justice Issues, Government Accountability Office:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Ms. Christine E. Wormuth, Senior Fellow, International Security 
  Program, Center for Strategic and International Studies:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. James M. Walker, Jr., Director, Alabama Department of 
  Homeland Security; Accompanied by Brock Long, Director, State 
  Emergency Management Agency:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28

                                Appendix

Questions From Chairman Christopher P. Carney for Wayne Parent...    49
Questions From Ranking Member Mike Rogers for Wayne Parent.......    49
Questions From Chairman Christopher P. Carney for William O. 
  Jenkins, Jr....................................................    51
Questions From Ranking Member Mike Rogers for William O. Jenkins, 
  Jr.............................................................    51
Questions From Chairman Christopher P. Carney for Christine E. 
  Wormuth........................................................    52
Questions From Ranking Member Mike Rogers for Christine E. 
  Wormuth........................................................    55
Questions From Chairman Christopher P. Carney for James M. 
  Walker, Jr.....................................................    57
Questions From Ranking Member Mike Rogers for James M. Walker, 
  Jr.............................................................    57
Questions From Ranking Member Mike Rogers for Brock Long.........    60


           READY TO LEAD? DHS AND THE NEXT MAJOR CATASTROPHE

                              ----------                              


                        Wednesday, June 11, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Management, Investigations, and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:06 p.m., in 
Room 311, Cannon House Office Building, Hon. Christopher P. 
Carney [Chairman of the subcommittee] presiding.
    Present: Representatives Carney, Perlmutter, Pascrell, 
Thompson [ex officio], and Rogers.
    Mr. Carney. The subcommittee will come to order. The 
subcommittee is meeting today to receive testimony on ``Ready 
to Lead? DHS and the Next Major Catastrophe''.
    When Katrina hit the Gulf Coast, I was not a Member of 
Congress. I was, however, a naval officer. So I knew from 
experience what the Federal Government can do when its efforts 
are coordinated and it is well led. In the wake of Katrina, it 
was clear for all to see that there was neither coordination 
nor leadership.
    DHS, the Department charged with leading the Federal 
response, sat back and waited for others to act. Why? Because 
leaders didn't lead. People didn't know their missions. The 
problems started at the top when the Secretary of Homeland 
Security, then Chief of Staff, had not even read the national 
response plan.
    It is easy to understand why others across the Department 
may have been confused about their roles. I knew then and I 
know now that we can do better. I know because I have seen it 
from the inside.
    Today, I want Mr. Parent to tell me what DHS and its senior 
leadership will do the next time a major disaster is looming. I 
want to hear how the lessons of Katrina and 9/11 have been 
turned into specific, actionable plans.
    I was heartened to hear about the Department's focus on 
interagency working groups and on standardizing planning. It is 
tough to overstate the importance of planning and of having a 
planning system. In the Navy, planning is everything. When we 
are talking about disaster preparedness and response, it should 
be no different.
    DHS is to be commended for recognizing the void in planning 
and moving quickly to fill it. Now it is time for other 
agencies that will play key roles in any response effort to 
fully get on board.
    Some agencies in the Federal Government have been terrific 
about working with DHS. Others, not so much. If you proceed as 
if the Department of Homeland Security act was just some bad 
dream, that will never really happen. But DHS is here and it is 
not going away any time soon. For the good of the country, it 
is time to accept that. Turf battles, whether in the executive 
or legislative branch, do us all a disservice, and those who 
put turf above duty dishonor themselves and their important 
mission.
    I look forward to hearing about the areas where DHS has 
worked across agency lines in learning what we in Congress can 
do to replicate this across the Department.
    The Chair now recognizes the Ranking Member of the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. Thank you, Mr. Chairman. Before I make my 
statement, I ask unanimous consent that Mr. Brock Long, 
Director of Alabama Department of Emergency Management, be able 
to sit at the witness table and assist Director Walker.
    Mr. Carney. Without objection, so ordered.
    Mr. Rogers. Thank you, sir.
    Let me begin by thanking the witnesses for taking the time 
to be with us here today. I appreciate your time and your 
expertise. I especially want to thank two witnesses from my 
home State, Mr. Jim Walker and Mr. Brock Long. They will 
discuss some innovative programs our State has implemented to 
be better prepared for the next disaster. In fact, one of these 
programs, known as Virtual Alabama, won a national award this 
week from the American Council for Technology.
    The purpose of this hearing is to determine how ready the 
Department of Homeland Security is to lead Federal efforts in 
the event of another major catastrophe. This hearing is timely, 
given that another hurricane season has just begun, and it is 
predicted to be a very active year. Alabama was hit hard by 
Hurricane Katrina in 2005, with tens of thousands of folks 
affected and 31 disaster recovery centers in operation.
    One critical resource in responding to a catastrophe is the 
disaster canine teams. We saw the key role they played in the 
aftermaths of Hurricanes Katrina and Rita. Approximately 220 
disaster canine teams were deployed. Both the canines and their 
handlers worked tirelessly to find both the living and the 
deceased as the catastrophe unfolded. These canines were 
partially responsible for more than 6,600 rescue and 
evacuations performed by the National Urban Search and Rescue 
Response System during that time.
    In addition to their search and rescue missions, canines 
play a key role in homeland security. Their keen sense of smell 
and strong ability to process odors allows them to detect 
explosives, narcotics, bulk cash, and concealed humans. The 
Urban Search and Rescue Task Forces and the DHS generally do 
not have enough dogs to meet their stated needs. Therefore, it 
is important for DHS to expand its domestic breeding capacity 
and to develop national training and certification standards to 
ensure the quality of these canines.
    As we examine the Department's level of readiness today, we 
should consider what steps Congress can take to help these 
folks at DHS be better prepared. First, Congress needs to enact 
the remaining 9/11 Commission recommendations to consolidate 
its jurisdiction over DHS officials so they will no longer have 
to report to 86 committees and subcommittees.
    Second, we need to pass a DHS authorization bill before 
Congress acts on the Homeland Security Appropriations bill.
    Third, Congress must not reorganize DHS again in the near 
future so its current organizational structure can take hold.
    These three steps, if taken by Congress, not only would 
strengthen DHS, but also would strengthen our national 
security.
    I look forward to hearing from our witness on these and 
other issues, and I yield back, Mr. Chairman.
    Mr. Carney. Thank you.
    The Chair now recognizes the gentleman and the Chairman of 
the full committee, the gentleman from Mississippi, Mr. 
Thompson, for an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. Good 
afternoon. First, I would like to thank you for holding this 
important and timely hearing. I would also like to thank our 
panel for being here.
    For many Americans, their introduction to the Department of 
Homeland Security was the images they saw on their television 
screens in the days after Hurricane Katrina. In the weeks and 
months that followed, FEMA and the Department took a lot of 
hits. But those of us who actually studied what happened know 
that the problems ran much deeper than Mike Brown and the 
Department of Homeland Security.
    To be clear, it is absolutely true that the Department 
failed to lead an effective Federal response. However, it is 
equally true that much of the rest of the Federal Government 
was not willing to lead; and though this second truth that has 
been largely overshadowed, it is a lingering problem we must 
fix if we are to do better next time.
    Today, we will hear from some promising programs underway 
within the Department. We will hear about a group, the Incident 
Management Planning Team, that does more than just pay lip 
service to the notion of interagency cooperation and planning. 
Instead, every day input brings together senior representatives 
from across the Federal Government to think about the 
unthinkable and, more importantly, to plan for it. It is hard 
to overstate the importance of these interagency efforts. June 
1 marked the beginning of the 2008 hurricane season so this 
hearing comes at a timely point.
    We also know that the Federal Government as a whole, not 
just FEMA, was not prepared in 2005. I look forward to the 
hearing today about the progress the Department has made over 
the past 3 years.
    Thank you, Mr. Chairman, and I yield back
    Mr. Carney. Thank you, Mr. Chairman. Other Members of the 
subcommittee are reminded that under committee rules, opening 
statements may be submitted for the record.
    I welcome the witnesses. Our first witness is Wayne Parent, 
the Deputy Director of the Department of Homeland Security's 
Office of Operations Coordination and Planning. Mr. Parent also 
served as the Director of current operations for the Border and 
Transportation Security Directorate within the Department. Mr. 
Parent has been with the Department since its inception.
    Our second witness is Mr. William Jenkins. Mr. Jenkins is 
the Director for the Homeland Security and Justice Team at the 
Government Accountability Office. He is responsible for leading 
GAO's work on emergency preparedness and response issues. He 
has been with that agency for 28 years.
    Our third witness is Ms. Christine Wormuth, Senior Fellow 
with the International Security Program at the Center for 
Strategic and International Studies, where she works on many 
issues, including emergency response and preparedness 
challenges. Prior to her current position, she was a staff 
director for the Jones Commission, which was widely heralded 
for its study of the Iraqi police force.
    Our fourth witness is Mr. James Walker, the Director of the 
Alabama Department of Homeland Security. Mr. Walker was 
appointed to serve as the State's first Homeland Security 
Director on January 20, 2003.
    I would like to take this opportunity to note Director 
Walker's 20 years of service in the U.S. Army, where he retired 
as a lieutenant colonel. Thank you for your service, sir.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his or her statement for 5 minutes, beginning with Mr. Parent. 
I will admonish you that we are on a tight schedule this 
afternoon so we will stick to 5 minutes.

     STATEMENT OF WAYNE PARENT, DEPUTY DIRECTOR, OFFICE OF 
 OPERATIONS COORDINATION AND PLANNING, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Parent. Good afternoon, Chairman Carney, Ranking Member 
Rogers, Chairman Thompson, and the Members of the subcommittee. 
I am Wayne Parent, Deputy Director of the Office of 
Coordination. I am pleased to appear today on this panel of 
distinguished witnesses.
    Thank you for inviting me to discuss how the Office of 
Operations Coordination conducts strategic level planning with 
the incident management planning team and how this planning 
effort facilitates the Secretary of DHS's ability to execute 
his Homeland Security Presidential Directive--5 incident 
management responsibilities.
    To put this discussion in its proper context, it is 
critical that we first recognize some of the authorities that 
guide OPS' action on this important issues. Pursuant to the 
Homeland Security Act of 2002, the Secretary leads DHS in 
executing its key missions. The Secretary's role as defined in 
the HSA is further articulated in the HSPD-5.
    Under HSPD-5, the Secretary is the principal Federal 
official for domestic incident management, responsible for 
coordinating Federal operations within the United States to 
prepare for, respond to, and recover from terrorist attacks, 
major disasters and other emergencies.
    The mission of operations is to integrate departmental and 
strategic level interagency planning and operations 
coordination in order to prevent, protect, respond to, and 
recover from terrorist threats, attacks, or threats from other 
manmade or natural disasters.
    Planning is critical to the Secretary's effective execution 
of his HSPD-5 authorities. This responsibility to coordinate 
the actions requires that he possess knowledge of the 
respective responsibilities and capabilities of the interagency 
before an incident occurs. As a result, the IMPT was created in 
2006 to provide a strategic level planning capability that did 
not previously exist within DHS or the Federal interagency.
    The mission of the IMPT is to provide contingency and 
crisis action incident management planning. It is comprised of 
two components: a core group of fifteen full-time planners from 
key DHS elements, as well as several key interagency partners, 
and a pre-identified on-call staff of 38 planners, comprised of 
additional members from the DHS, as well as the remainder of 
the interagency.
    The IMPT's initial actions have been focused on the 
development of strategic level interagency plans that address 
each of the fifteen national planning scenarios. Each plan 
developed by the IMPT identifies the specific actions per 
existing authorities that individual departments and agencies 
intend to take in the event a given scenario occurs.
    The IMPT's initial success has been due in large measure to 
the development and use of the National Planning and Execution 
System planning process. Early on, it was recognized that the 
success or failure in the IMPT would hinge largely on its 
ability to develop a planning process that could coordinate the 
efforts of this interagency group and facilitate the 
development of a shared planning culture across the Federal 
Government. No planning system or process previously existed 
for this purpose.
    This process was converted to a curriculum which was taught 
to each of the members of the IMPT. The feedback from this 
training has been overwhelmingly positive and has resulted in 
numerous requests by departments and agencies that this 
training be offered to individuals within their organizations. 
To date, more than 500 planners across the interagency Federal 
arena have been trained, and more sessions are planned.
    In order to build on the initial success of the IMPT and 
the NPES, in December, 2007, the President approved Annex 1, 
National Planning to HSPD-8. Annex 1 will further enhance the 
preparedness of the Nation by formally establishing a standard 
and comprehensive approach to operations planning. When fully 
adopted, Annex 1 will build on the strategic level planning 
effort already well under way with the IMPT by calling for the 
development of operational and tactical level operation plans 
at the Federal department/agency level for the national 
planning scenarios.
    When an incident occurs or a known threat triggers the 
Secretary's HSPD-5 responsibilities, my office facilitates the 
DHS Secretary's ability to execute these responsibilities 
through its management of the DHS crisis action process. The 
primary entities which perform functions central to the crisis 
action process are the DHS senior leadership group and the DHS 
crisis action team.
    I am very pleased to report on the progress DHS has made in 
how we plan for and manage incidents at the strategic level. On 
May 22, the Secretary acknowledged a culminating point for many 
of our improvements by directing several enhancements to 
operations. We have begun to implement many of these 
enhancements, which allow us to better integrate the strategic 
planning and operational functions we already perform.
    Since Hurricane Katrina, the National Operations Center, 
also under Operations, has thoroughly reviewed and revamped its 
procedures for managing information to ensure a high level of 
situational awareness for senior officials for all hazard 
events. These improvements have been successfully validated 
through real events and exercises over the past 2 years.
    My office has also assumed responsibility for supporting 
the Secretary's principal Federal officials. In preparation for 
the 2008 Hurricane season, Secretary Chertoff has predesignated 
teams of principal Federal officials and Federal coordinating 
officers. To provide the necessary skills and experience for 
these important positions, the Secretary named officials from 
FEMA, TSA and the U.S. Coast Guard to lead each team. A number 
of predesignated officials already have served on the PFO teams 
during the last two hurricane seasons.
    I hope this testimony leaves you with an appreciation for 
the progress DHS has made to improve strategic planning and 
operations coordination.
    Thank you for the opportunity to report to the subcommittee 
on this program. I request that you place this testimony in the 
permanent record, and would be pleased to answer any questions 
at this time.
    Mr. Carney. Thank you for your testimony.
    [The statement of Mr. Parent follows:]
                   Prepared Statement of Wayne Parent
                             June 11, 2008
    Good morning, Chairman Carney, Ranking Member Rogers and Members of 
the subcommittee. I am Wayne Parent, Deputy Director of the Office of 
Operations Coordination and Planning at the U.S. Department of Homeland 
Security (DHS). I am pleased to appear today alongside Christine 
Wormuth and the other distinguished witnesses. Thank you for inviting 
me to discuss how the Office of Operations Coordination and Planning 
(OPS) conducts strategic-level planning with the Incident Management 
Planning Team (IMPT) and how this planning effort facilitates the 
Secretary of DHS' (Secretary) ability to execute his Homeland Security 
Presidential Directive--5 (HSPD-5) incident management 
responsibilities.
    To put this discussion in its proper context, it is critical that 
we first recognize some of the authorities that guide OPS' actions on 
these important issues. Pursuant to the Homeland Security Act of 2002 
(HSA), the Secretary leads DHS in executing its key missions: 
preventing terrorist attacks; reducing the country's vulnerability to 
terrorism; minimizing the damage and assisting in recovery from 
terrorist attacks that do occur in the United States; and acting as a 
focal point regarding natural and manmade crises and emergency 
planning. The Secretary's role as defined in the HSA is further refined 
in HSPD-5.
    Under HSPD-5, the Secretary is the principal Federal official for 
domestic incident management, responsible for ``coordinating Federal 
operations within the United States to prepare for, respond to, and 
recover from terrorist attacks, major disasters, and other 
emergencies.'' On this point, it is especially important to recognize 
the fact that the term ``incident'' applies equally to real or 
potential threats and not just ``disasters'' that have already 
occurred, as is often erroneously suggested. To carry out those 
responsibilities, the President directed all ``Federal departments and 
agencies to cooperate with the Secretary in the Secretary's domestic 
incident management role.'' Thus, the Secretary is authorized by the 
President to coordinate Federal operations across the full spectrum of 
homeland security operations, i.e., prevention, protection, response, 
and recovery.
    In order to enable the Department to more effectively conduct joint 
homeland security operations across all organizational elements, the 
Secretary created OPS pursuant to Section 872 of the HSA. The mission 
of OPS is to integrate departmental and strategic-level interagency 
planning and operations coordination in order to prevent, protect, 
respond to and recover from terrorist threats/attacks or threats from 
other man-made or natural disasters.
                incident management planning team (impt)
    Planning is critical to the Secretary's effective execution of 
HSPD-5 authorities. This is especially true for two reasons: we face a 
variety of ever evolving all-hazards threats (i.e., terrorist, man-
made, and natural disaster); and a multitude of distinct authorities 
and directives currently exist to govern the actions of the interagency 
for any one of the potential threats. In this regard, the Secretary's 
responsibility, per HSPD-5, to coordinate the actions of the 
interagency requires that he possess knowledge of the respective 
responsibilities and capabilities of the interagency before an incident 
occurs. As a result, the IMPT was created in 2006 to provide a 
strategic-level planning capability that did not previously exist 
within DHS or the interagency.
    The mission of the IMPT is to provide contingency and crisis-action 
incident management planning in support of Secretary's national level 
domestic incident management responsibilities articulated in the 
Homeland Security Act of 2002 and HSPD-5. It is comprised of two 
components: (1) a core group of 15 full-time planning representatives 
from key DHS elements (e.g., TSA, CBP, I&A, FEMA, Coast Guard) as well 
as other key interagency members (i.e., DOD, the FBI, HHS, DOT, DOE, 
EPA and the American Red Cross); and (2) a pre-identified ``on-call'' 
staff of 38 planners comprised of other members from DHS as well as the 
interagency. The IMPT was established in September 2006 and since then 
was developed into an effective interagency body through frequent 
training and exercising.
    The IMPT's initial actions have been focused on the development of 
strategic level interagency plans that address each of the fifteen 
National Planning Scenarios previously developed by the White House.\1\ 
The all-threats and all-hazards scenarios include nuclear, chemical, 
biological, natural disaster and cyber incidents. Each plan developed 
by the IMPT identifies the specific actions, per existing authorities, 
that individual departments and agencies intend to take in the event a 
given scenario occurs. None of the plans developed by the IMPT alter 
any existing authorities of individual Federal Departments and Agencies 
or convey new authorities upon the DHS Secretary or any other Federal 
official. The primary value of this effort is to identify the 
strategic-level responsibilities of the entire interagency in one 
comprehensive document. This planning process also serves two 
additional purposes: it facilitates the ability of Secretary to fulfill 
his/her coordination responsibilities under HSPD-5 by providing 
awareness of the individual capabilities that a specific agency plans 
to deliver; and it also identifies seams and gaps that exist within the 
interagency planning efforts for a particular scenario.
---------------------------------------------------------------------------
    \1\ For the purpose of expediting the prioritization and planning 
process, an HSC Deputies Committee determined that the fifteen National 
Planning Scenarios would be collapsed into eight scenario sets.
---------------------------------------------------------------------------
    The IMPT's initial success has been due in large measure to its 
development and use of the National Planning and Execution System 
(NPES) planning process. Early on, it was recognized that the success 
or failure of the IMPT would hinge largely on its ability to develop a 
planning process that could coordinate the efforts of this interagency 
group and facilitate the development of a shared planning culture 
across the Federal Government.
    No planning system or process previously existed. When the IMPT was 
established, few Federal departments and agencies adhered to a formal 
planning process that organized the operations planning efforts within 
their respective departments. To achieve this goal, members of OPS 
created NPES, a planning process that integrated current and emerging 
interagency planning ``best practices'' that was consistent with the 
NRP (now NRF); adhered to the core concepts and terminology addressed 
in NIMS; and provided for plan validation by incorporation into various 
national level exercises (e.g., Ardent Sentry and TOPOFF 4).
    This process was converted to a curriculum that was taught to each 
member of the IMPT. The feedback from this training has been 
overwhelmingly positive and has resulted in numerous requests by 
departments and agencies that this training be offered to others within 
their respective departments and agencies. To date, more than 500 
planners from across the interagency have been trained and more 
sessions are planned. In addition, many State, local, and even foreign 
governments have requested copies of the NPES and related training.
    In order to build on the initial success of the IMPT and NPES, on 
December 4, 2007, the President approved Annex 1, National Planning, 
Homeland Security Presidential Directive-8 (HSPD-8). Annex 1 will 
further enhance the preparedness of the United States by formally 
establishing a standard and comprehensive approach to operations 
planning. This annex was intended to provide guidance for conducting 
planning in accordance with the Homeland Security Management System 
identified in the National Strategy for Homeland Security of 2007. When 
fully adopted, Annex 1 will build upon the strategic-level planning 
effort already well under way by the IMPT, by calling for the 
development of operational and tactical level operations plans for each 
of the fifteen National Planning Scenarios, at the Federal Department/
Agency level.
                       dhs crisis action process
    When an incident occurs or threat becomes known that triggers the 
Secretary's HSPD-5 responsibilities, my Office facilitates the DHS 
Secretary's ability to execute these responsibilities through its 
management of the DHS Crisis Action Process. The DHS Crisis Action 
Process is a process by which DHS leadership manages a domestic 
incident by following a general sequence of events while simultaneously 
engaging in a continuous cycle of actions. The DHS Crisis Action 
Process is designed to integrate the following functions: leverage the 
input and collective experience of DHS and other senior Federal 
leaders; sustain strategic-level crisis action planning; collect, 
develop, and disseminate strategic-level situational awareness 
products; and facilitate the Secretary's ability to conduct informed 
dialog for coordination with his interagency peers. The primary 
entities which perform functions central to the Crisis Action Process 
are the DHS Senior Leadership Group (SLG) and the DHS Crisis Action 
Team (CAT).
Senior Leadership Group (SLG)
    Once the DHS National Operations Center (NOC) is notified of a 
credible threat or that an incident has occurred, the NOC gathers 
information, generates required notifications, and provides situational 
awareness to the Secretary. The Secretary or the Director of OPS may 
convene the Senior Leadership Group (SLG) in order to provide initial 
incident orientation, discuss the incident, resolve intra-Department 
issues, and provide initial guidance and course of action 
recommendations. The SLG is comprised of the various DHS Assistant 
Secretaries that report to the Secretary and other select leaders 
within DHS. The SLG can be convened by the Secretary at any time and 
its primary purpose is to facilitate the Secretary's ability to receive 
input and recommendations from his most experienced leaders during 
times of crisis. When convened during times of crisis, the Secretary 
can also issue initial guidance to the SLG members regarding actions he 
deems appropriate. The Secretary will also consult with appropriate 
cabinet peers during an incident.
Crisis Action Team
    The Secretary's Crisis Action Team (CAT) is a scalable incident 
management entity formed during an event or identified threat to 
conduct Strategic-level operations coordination and planning to support 
the Secretary in his fulfilling his HSA and HSPD-5 responsibilities. 
Specifically, the CAT was developed to facilitate the Secretary's 
ability to execute responsibilities as the principal Federal official 
for domestic incident management. It is important to note that the CAT 
membership includes interagency representatives as well as DHS 
components.
    The CAT is a scalable entity organized into three branches: 
Operations, Planning, and Support. The Incident Management Officers 
(IMOs), who constitute the core group of the CAT Operations Branch, are 
always activated and serve in the National Operations Center Watch. 
Their primary function of the Operations Branch of the CAT is to 
provide the Secretary with integrated interagency reporting and 
situational awareness products regarding the specific event which 
triggered the CAT activation. The Planning Branch of the CAT is 
comprised of members of the IMPT and conduct strategic-level crisis 
action planning. Both the operations and planning branches of the CAT 
are also expected to provide any and all products necessary to 
facilitate the Secretary's ability to conduct informed dialog with his 
interagency peers.
                               conclusion
    I am very pleased to report on the progress DHS has made in how we 
plan for and manage incidents at the strategic level. DHS has made 
several key advancements in operational matters that directly support 
the Secretary's ability to carry out his Homeland Security Act, HSPD-5 
and HSPD-8 responsibilities. On May 22, the Secretary acknowledged a 
culminating point for many of these improvements by directing several 
enhancements to OPS and renaming it from the Office of Operations 
Coordination to the Office of Operations Coordination and Planning. We 
have begun to implement some of these enhancements, which will allow us 
to better integrate the strategic planning and operations functions we 
already perform.
    Since Hurricane Katrina, the National Operations Center has 
thoroughly reviewed and revamped its procedures for managing 
information to ensure a high level of situational awareness for senior 
officials for all hazards events. These improvements have been 
successfully validated through real events over the last 2 years, and 
extensively tested during the TOP OFFICIALS 4 exercise in 2007 and 
National Level Exercise 2-08 in May, 2008. The Pet Food Contamination 
incident in May, 2007; the California Wildfires in October, 2007; and 
the recent Annapolis Conference and New Year's Eve mass gatherings are 
just a few examples of major events that were effectively coordinated 
using an improved system for managing information and supporting senior 
decisionmakers. During these events, the NOC and DHS Crisis Action Team 
managed information flow, developed Situation Reports and Executive 
Summaries, convened subject matter experts, developed critical 
information requirements, and prepared briefing materials for the 
Secretary. These materials were used by departmental leadership and the 
White House in their processes for determining courses of action.
    OPS has satisfied every Homeland Security Council Katrina Lessons 
Learned recommendation that is applicable to the NOC. Key among these 
was the establishment of the NOC and a national reporting chain, as 
well as the implementation of the Common Operating Picture (COP) to 
enhance interagency situational awareness. For example, national 
reporting requirements and a national reporting chain were developed to 
cover hurricanes and tropical storms. These national reporting 
requirements and information flow were completed in advance of the 2006 
hurricane season and remain in use now.
    My office has also assumed responsibility for supporting the 
Secretary's Principal Federal Officials. In preparation for the 2008 
hurricane season, Secretary Chertoff has pre-designated teams of 
Principal Federal Officials (PFOs) and Federal Coordinating Officers 
(FCOs). To provide the necessary skills and experience for these 
important positions, the Secretary named officials from the Federal 
Emergency Management Agency (FEMA), the Transportation Security 
Administration, and the United States Coast Guard to lead each team. A 
number of the pre-designated officials already served on the PFO teams 
during the last two hurricane seasons.
    As you know, the PFO and FCO have distinct responsibilities, but 
work in tandem as part of the Unified Coordination Group within the 
Joint Field Office to determine the requirements and set unified 
objectives and priorities in partnership with the affected State(s). 
The PFO is the Secretary's representative in the field and assists him 
in executing his HSPD-5 domestic incident management responsibilities.
    I hope that this testimony leaves you with an appreciation for the 
progress DHS has made to improve strategic planning and operations 
coordination. Thank you for the opportunity to report to the 
subcommittee on this progress. I request that you place this testimony 
in the permanent record and would be pleased to answer any questions at 
this time.

    Mr. Carney. The Chair now recognizes Mr. Jenkins for 5 
minutes.

   STATEMENT OF WILLIAM O. JENKINS, JR., DIRECTOR, HOMELAND 
 SECURITY AND JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Jenkins. Chairman Carney, Ranking Member Rogers, and 
Members of the subcommittee, I appreciate the opportunity to be 
here today to discuss the Nation's preparedness for the next 
catastrophe disaster.
    FEMA and DHS face a formidable task in leading the Nation's 
effort to develop and sustain a comprehensive, risk-based 
emergency management system, one that is capable of responding 
effectively to catastrophe disasters. Effective response 
requires, first, clear and clearly understood roles and 
responsibilities; second, the ability and willingness to 
effectively carry out those roles and responsibilities; and 
third, effective partnerships with the many organizations that 
will have a role in the response.
    Roles and responsibilities are still not fully defined and 
well understood. We have not fully defined the capabilities 
needed for response, and we have no inventory of the existing 
capabilities, Government and non-Government, available for 
response to a catastrophe disaster. Key stakeholders have not 
always been included in the development of policies that define 
roles and responsibilities.
    DHS and FEMA are taking steps in each of these areas, but 
is an open question as to how ready the Nation is to respond 
effectively to the next catastrophic disaster.
    By definition, a catastrophe disaster is likely to quickly 
overwhelm State and local response capabilities, thus requiring 
substantial coordinated Federal response assistance, civilian 
and military. The shear number of organizations, Government and 
non-Government, involved in the response to a catastrophe 
disaster makes it imperative that each understands their roles 
and responsibilities in the response. Unless roles and 
responsibilities are clear, precious time can be wasted, lives 
lost, as organizations determine who will do what. Response 
efforts may be duplicative, uncoordinated, and ineffective, as 
we saw with Hurricane Katrina.
    Roles and responsibilities are still not always clear, as 
shown by three examples:
    First, the agreement between NORTHCOM and the National 
Guard Bureau on how they will interact after a disaster does 
not define clearly each agency's roles and responsibilities, 
which could result in fragmented and uncoordinated response.
    Second, there continue to be questions about the 
operational role of the principal Federal officials who 
represent the Secretary and the Federal coordinating official 
who is appointed under the Stafford Act and makes resource 
assignments to other Federal agencies.
    Third, the National Strategy For Pandemic Influenza does 
not clarify how the Secretaries of DHS and HHS will jointly and 
strategically manage the response to an influenza pandemic over 
an extended period of time in multiple regions across the 
country.
    Clear roles and responsibilities would be especially 
critical as we transition between Presidential administrations. 
Disasters cannot be expected to take a holiday during this 
period. To cope with the absence of many politically appointed 
executives, DHS has designated career executives to carry out 
specific responsibilities. Other departments and agencies 
should do so as well. It is critically important that these 
executives receive training and participate in at least some 
tabletop exercises on fulfilling their responsibilities. The 
aftermath of a major disaster is no time for on-the-job-
training.
    DHS has contracted with the Council for Excellence in 
Government to identify and map key roles and responsibilities 
for DHS and its Homeland Security partners for responding to 
disasters during the transition period. Once those materials 
have been developed, the Council plans to hold a series of 
training workshops for those in acting leadership positions.
    Leading an effective response requires knowing what 
resources are available to do what and who has them. Currently, 
we do not have a comprehensive inventory of the resources 
available for response to different types of disasters. DHS and 
FEMA have a variety of efforts under way to complete the needed 
guidance, operational plans, and performance metrics that can 
be used to assist capabilities and identify critical gaps. 
However, this effort is far from complete.
    The DHS Inspector General has reported that responsibility 
for leading the development of a number of key capabilities, 
such as evacuation, community preparedness and interoperable 
communications is dispersed among multiple agencies and offices 
with no single point of accountability. This can complicate 
efforts to develop a clear focus on strategy, for building 
capabilities in these areas, and effectively coordinating with 
multiple stakeholders.
    DHS and FEMA recognize they must build trust and effective 
partnerships with a wide variety of organizations that would 
have a role in responding to a catastrophic disaster. Thus, it 
is important that DHS and FEMA include these stakeholders in 
their development of key policies that affect them and have 
clear and transparent processes for how DHS and FEMA will do 
so.
    Today, we are releasing our report on the process that was 
used to develop the national response framework. DHS did not 
follow its own work plan for involving stakeholders in the 
process, and cut communication with them in the midst of the 
revision. This undermines stakeholder trust and their sense of 
participation and ownership in the process.
    FEMA subsequently implemented a broadly inclusive process 
for commenting on the September 2007 draft revision, which 
reduced much of the tension that had developed between DHS and 
the stakeholders. In addition, key non-Federal stakeholders, 
who are expected to be the primary responders to an influenza 
pandemic, were not involved in developing the national pandemic 
strategy and implementation plan.
    In conclusion, FEMA and DHS have taken a number of steps to 
address the shortcomings that Katrina exposed in the Nation's 
ability to respond to a catastrophic disaster, but without 
clearly understood roles and responsibilities, a clear 
statement of needed capabilities and a comprehensive inventory 
of capabilities, it is an open question as to how ready DHS and 
the Nation are for the next catastrophic disaster.
    That concludes my statement. I would be pleased to respond 
in any questions you or Members of the committee may have.
    Mr. Carney. Thank you for your testimony.
    [The statement of Mr. Jenkins follows:]
             Prepared Statement of William O. Jenkins, Jr.
                             June 11, 2008
                             gao highlights
    Highlights of GAO-08-868T, a report to Subcommittee on Management, 
Investigations and Oversight, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    The Homeland Security Act was enacted in November 2002, creating 
the Department of Homeland Security (DHS) to improve homeland security 
following the September 11, 2001, terrorist attacks on the United 
States. The act centralized the leadership of many homeland security 
activities under a single Federal department and, accordingly, DHS has 
the dominant role in implementing this national strategy.
    This testimony discusses the status of DHS's actions in fulfilling 
its responsibilities to: (1) Establish policies to define roles and 
responsibilities for national emergency preparedness efforts and 
prepare for the transition between presidential administrations; and, 
(2) develop operational plans and performance metrics to implement 
these roles and responsibilities and coordinate Federal resources for 
disaster planning and response. This testimony is based on prior GAO 
work performed from September 2006 to June 2008 focusing on DHS's 
efforts to address problems identified in the many post-Katrina 
reviews.
What GAO Recommends
    GAO is not making any new recommendations in this testimony. GAO 
has made recommendations in the prior reports identified in this 
testimony, and DHS has generally concurred with these recommendations 
and is taking action to implement them.
     emergency management: observations on dhs's preparedness for 
                         catastrophic disasters
What GAO Found
    DHS has taken several actions to define national roles and 
responsibilities and capabilities for emergency preparedness efforts in 
key policy documents and has begun preparing for the upcoming 
transition between presidential administrations. DHS prepared initial 
versions of key policy documents that describe what should be done and 
by whom (National Response Plan in 2004), how it should be done (the 
National Incident Management System in 2004) and how well it should be 
done (the interim National Preparedness Goal in 2005). DHS subsequently 
developed and issued revisions to these documents to improve and 
enhance its national-level policies, such as the National Preparedness 
Guidelines in 2007 which was the successor to the interim National 
Preparedness Goal. Most recently, DHS developed the National Response 
Framework (NRF), the successor to the National Response Plan, which 
became effective in March 2008. This framework describes the doctrine 
that guides national response actions and the roles and 
responsibilities of officials and entities involved in response 
efforts. Clarifying roles and responsibilities will be especially 
critical as a result of the coming change in administrations and the 
associated transition of key Federal officials with homeland security 
preparedness and response roles. To cope with the absence of many 
political appointed executives from senior roles, DHS has designated 
career executives to carry out specific responsibilities in the 
transition between presidential administrations and recently provided 
information to this committee on its transition plans. To assist in 
planning to execute an efficient and effective administration 
transition, DHS has also contracted with the Council for Excellence in 
Government to identify key roles and responsibilities for the 
Department and its homeland security partners for responding to 
disasters during the transition between administrations.
    DHS is still developing operational plans to guide other Federal 
agencies' response efforts and metrics for assessing Federal 
capabilities. Two essential supplements to the new National Response 
Framework--response guides for Federal partners and an integrated 
planning system--are still under development. Also, DHS is still 
establishing a process to measure the Nation's overall preparedness 
based on a list of targeted capabilities and has not yet completed an 
inventory of all Federal response capabilities. The measures and 
metrics associated with these targeted capabilities are not standards, 
but serve as guides for planning, training, and exercise activities. 
However, DHS policy does not direct development of these capabilities 
to address national priorities for Federal agencies. For example, for 
the national priority to ``Strengthen Interoperable and Operable 
Communications Capabilities'' the National Preparedness Guidelines 
state that communications capabilities are developed to target levels 
in the States, tribal areas, territories, and designated urban areas 
that are consistent with measures and metrics established for targeted 
capabilities; Federal agencies' interoperability is not addressed.
    Mr. Chairman and Members of the subcommittee, I appreciate the 
opportunity to participate in today's hearing to discuss the Department 
of Homeland Security's (DHS) preparedness to lead Federal efforts to 
prepare for, prevent, mitigate the effects of, respond to, and recover 
from all domestic disasters, whether natural or man-made, including 
acts of terror. My remarks today focus on the preparation for and 
response to major and catastrophic disasters which require substantial 
Federal coordination with and assistance to State and local responders. 
My statement is grounded in the work GAO has done to-date on DHS and 
the Federal Emergency Management Agency (FEMA) in preparing for, 
responding to and recovering from major disasters and catastrophes.
    The need for Federal leadership in homeland security efforts was 
never greater than in the hours and days following the attacks of 
September 11, 2001, which ultimately led to the creation of DHS and the 
establishment of the Department's roles to provide strategic, national 
leadership as the focal point for Federal response and coordination. 
This role is defined in law and executive order and described in 
Federal emergency management strategies, policies, and procedures. In 
order to provide the coordinated national homeland security effort 
directed by the Congress and the President, DHS must provide leadership 
across a broad spectrum of stakeholders including: Federal agencies and 
departments, and DHS's own components; State, local and tribal 
governments, their emergency management agencies and other State 
agencies; sector-specific businesses and industry; voluntary 
organizations; and academia. It is an enormous challenge and 
responsibility. In leading national preparedness efforts, DHS through 
FEMA is responsible for developing national-level policies and doctrine 
to guide the efforts of these stakeholders to establish operational 
plans to carry out their roles and responsibilities and build, measure, 
and sustain their ability to do so effectively.
    The effectiveness of DHS and FEMA in assuming these 
responsibilities was severely tested--and in some cases clearly found 
wanting--in the aftermath of the 2005 hurricane season and its 
catastrophic impact on the Gulf Coast. Numerous reports,\1\ along with 
our own observations,\2\ identified concerns about leadership of the 
Federal response to Hurricane Katrina and questions regarding the 
roles, and responsibilities of DHS, FEMA and other Federal agencies, as 
well as state and local officials and non-governmental organizations. 
As we reported in September 2006, effective preparation and response 
for catastrophic disasters requires that roles and responsibilities be 
clearly defined and understood and that responsible officials know what 
capabilities are needed to fulfill their roles and responsibilities, 
develop the operational plans to implement those roles and 
responsibilities, and establish, realistically test, and maintain the 
needed capabilities. To address many of the issues and problems 
highlighted by the Katrina response, Congress passed the Post-Katrina 
Emergency Management Reform Act of October 2006 (Post-Katrina Act),\3\ 
which charged FEMA with the primary responsibility for coordinating and 
implementing key aspects of Federal emergency preparedness and 
response.
---------------------------------------------------------------------------
    \1\ See reports: A Failure of Initiative: Final Report of the House 
Select Bipartisan Committee to Investigate the Preparation for and 
Response to Hurricane Katrina (Washington, DC: Feb. 15, 2006), U.S. 
Senate Committee on Homeland Security and Governmental Affairs 
Hurricane Katrina: A Nation Still Unprepared (Washington, DC: May 
2006), White House Homeland Security Council The Federal Response to 
Hurricane Katrina: Lessons Learned (Washington, DC: Feb. 23, 2006), 
Department of Homeland Security's Office of Inspector General A 
Performance Review of FEMA's Disaster Management Activities in Response 
to Hurricane Katrina, OIG-06-32 (Washington, DC: Mar. 31, 2006).
    \2\ GAO, Catastrophic Disasters: Enhanced Leadership, Capabilities, 
and Accountability Controls Will Improve the Effectiveness of the 
Nation's Preparedness, Response, and Recovery System, GAO-06-618, 
(Washington, DC: Sept. 2, 2006).
    \3\ The Post-Katrina Act was enacted as Title VI of the Department 
of Homeland Security Appropriations Act, 2007, Pub. L. No. 109-295, 120 
Stat. 1355 (2006).
---------------------------------------------------------------------------
    The Post-Katrina Act defines a catastrophic incident as any natural 
disaster, act of terrorism, or other man-made disaster that results in 
extraordinary levels of casualties or damage or disruption severely 
affecting the population (including mass evacuations), infrastructure, 
environment, economy, national morale, or Government functions in an 
area. Effective Federal preparation for and response to such an event 
requires planning, coordination, cooperation, and leadership within DHS 
and between DHS and other Federal agencies--civilian and military--as 
well as State and local governments, and the private and nonprofit 
sectors who have resources and capabilities needed for the response.
    Today, I'd like to briefly discuss the status of DHS's actions in 
fulfilling its responsibilities to:
  <bullet> establish policies to define roles and responsibilities for 
        national emergency preparedness efforts and prepare for the 
        transition between Presidential administrations; and
  <bullet> develop operational plans and performance metrics to 
        implement these roles and responsibilities and coordinate 
        Federal resources for disaster planning and response.
    My observations on DHS's and FEMA's development of policies, plans 
and metrics to lead Federal efforts in this statement are based on our 
prior work, focusing on DHS's efforts to address problems identified in 
the many post-Katrina reviews from September 2006 to June 2008, as well 
as related work by the DHS Office of Inspector General (OIG). We have 
issued a number of GAO reports that have examined a wide variety of 
operational and management issues, made observations and 
recommendations, and followed up on our reports assessing DHS's 
leadership capabilities in working with other Federal agencies. 
Examples relevant to the hearing today include our reviews of emergency 
communications interoperability,\4\ evacuations of disadvantaged 
populations,\5\ national preparedness for pandemic flu,\6\ and 
coordination with the Department of Defense (DOD).\7\
---------------------------------------------------------------------------
    \4\ GAO, First Responders: Much Work Remains to Improve 
Communications Interoperability, GAO-07-301 (Washington, DC: April 2, 
2007).
    \5\ GAO, Status of Implementation of GAO Recommendations on 
Evacuation of Transportation-Disadvantaged Populations and Patients and 
Residents of Health Care Facilities, GAO-08-544R (Washington, DC: Apr. 
1, 2008).
    \6\ GAO, Influenza Pandemic: Further Efforts Are Needed to Ensure 
Clearer Leadership Roles and an Effective National Strategy, GAO-07-781 
(Washington, DC: Aug. 14, 2007).
    \7\ GAO, Homeland Defense U.S. Northern Command Has Made Progress 
but Needs to Address Force Allocation, Readiness Tracking Gaps, and 
Other Issues, GAO-08-251 (Washington, DC: Feb. 16, 2008), Homeland 
Defense: Steps Have Been Taken to Improve U.S. Northern Command's 
Coordination with States and the National Guard Bureau, but Gaps 
Remain, GAO-08-252 (Washington, DC: April 16, 2008), and Homeland 
Security: Enhanced National Guard Readiness for Civil Support Missions 
May Depend on DOD's Implementation of the 2008 National Defense 
Authorization Act, GAO-08-311 (Washington, DC: April 16, 2008).
---------------------------------------------------------------------------
                                summary
    DHS has taken several actions to define national roles and 
responsibilities and capabilities for preparedness and response in key 
policy documents and has begun preparing for the upcoming transition 
between Presidential administrations. However, it needs to better 
integrate stakeholders in its revision of key policy documents, 
particularly the National Response Framework. To implement requirements 
of the Homeland Security Act of 2002 and HSPDs 5 and 8,\8\ DHS issued 
initial versions of key policy documents in 2004 (NIMS and the National 
Response Plan) and 2005 (National Preparedness Goal) and has developed 
and issued revisions intended to improve and enhance its national-level 
policies. Most recently, the National Response Framework (NRF), the 
successor to the National Response Plan, became effective in March 
2008; it describes the doctrine that guides national response actions 
and the roles and responsibilities of officials and entities involved 
in response efforts. Clarifying roles and responsibilities will be 
especially critical as a result of the coming change in administrations 
and the associated transition of key Federal officials with homeland 
security preparedness and response roles. To cope with the absence of 
many political appointed executives from senior roles, DHS has 
designated career executives to carry out specific responsibilities in 
the transition between Presidential administrations and recently 
provided information to this committee on its transition plans. To 
assist in planning to execute an efficient and effective administration 
transition, DHS has also contracted with the Council for Excellence in 
Government to identify key roles and responsibilities for the 
Department and its homeland security partners for responding to 
disasters during the transition between administrations.
---------------------------------------------------------------------------
    \8\ The Homeland Security Act of 2002 and HSPD-5 required DHS to 
develop a comprehensive National Incident Management System (NIMS) and 
a comprehensive National Response Plan. Homeland Security Presidential 
Directive--8 (HSPD-8) of December 17, 2003 directed the Secretary of 
Homeland Security to develop a national domestic all-hazards 
preparedness goal.
---------------------------------------------------------------------------
    DHS's efforts to develop operational plans to guide other Federal 
agencies' response efforts and metrics for assessing Federal 
capabilities are incomplete. In addition, DHS is still establishing a 
process to measure the Nation's overall preparedness based on the 
Target Capabilities List (TCL) \9\ and has not yet developed a complete 
inventory of all Federal response capabilities. For example, for the 
national priority to ``Strengthen Interoperable and Operable 
Communications Capabilities'' the National Preparedness Guidelines 
state that communications capabilities are developed to target levels 
in the States, tribal areas, territories, and designated urban areas 
that are consistent with measures and metrics established for targeted 
capabilities; Federal agencies' interoperability is not addressed.
---------------------------------------------------------------------------
    \9\ The TCL is a comprehensive catalog of capabilities to perform 
homeland security missions, including performance measures and metrics 
for common tasks. The 37 capabilities referenced in the Guidelines span 
the full spectrum of homeland security missions. While the listing does 
not yet encompass every function that must be accomplished to prevent, 
protect against, respond to, or recover from a major event, it 
nonetheless offers a comprehensive starting point for planning.
---------------------------------------------------------------------------
                               background
    DHS's Federal leadership role and responsibilities for emergency 
preparedness as defined in law and executive order are broad and 
challenging. To increase homeland security following the September 11, 
2001, terrorist attacks on the United States, President Bush issued the 
National Strategy for Homeland Security in July 2002,\10\ and signed 
the Homeland Security Act in November 2002 creating DHS. The act 
centralized the leadership of many homeland security activities under a 
single Federal department and, accordingly, DHS has the dominant role 
in implementing the strategy. As we noted in our review of DHS's 
mission and management functions, the National Strategy for Homeland 
Security underscores the importance for DHS of partnering and 
coordination.\11\ For example, 33 of the strategy's 43 initiatives are 
required to be implemented by 3 or more Federal agencies. If these 
entities do not effectively coordinate their implementation activities, 
they may waste resources by creating ineffective and incompatible 
pieces of a larger security program.
---------------------------------------------------------------------------
    \10\ White House Office of Homeland Security, National Strategy for 
Homeland Security (Washington, DC: Jul. 16, 2002).
    \11\ GAO, Department of Homeland Security: Progress Report on 
Implementation of Mission and Management Functions, GAO-07-454 
(Washington, DC: August 17, 2007).
---------------------------------------------------------------------------
    In addition, more than 20 Homeland Security Presidential Directives 
(HSPDs) define DHS's and other Federal agencies' roles in leading 
efforts to prepare for and respond to disasters, emergencies, and 
potential terrorist threats. Directives that focus on DHS's leadership 
role and responsibilities for homeland security include HSPD-5 and 
HSPD-8 which are summarized below:
  <bullet> Homeland Security Presidential Directive--5 (HSPD-5), issued 
        on February 28, 2003, identifies the Secretary of Homeland 
        Security as the principal Federal official for domestic 
        incident management and directs him to coordinate the Federal 
        Government's resources utilized in response to or recovery from 
        terrorist attacks, major disasters, or other emergencies.\12\ 
        The Secretary of DHS, as the principal Federal official, is to 
        provide standardized, quantitative reports to the Assistant to 
        the President for Homeland Security on the readiness and 
        preparedness of the Nation--at all levels of Government--to 
        prevent, prepare for, respond to, and recover from domestic 
        incidents and develop and administer a National Response Plan 
        (NRP). To facilitate this role, HSPD-5 directs the heads of all 
        Federal departments and agencies to assist and support the 
        Secretary in the development and maintenance of the NRP. (The 
        plan was recently revised and is now called the National 
        Response Framework.)
---------------------------------------------------------------------------
    \12\ If and when any one of the following four conditions applies: 
(1) A Federal department or agency acting under its own authority has 
requested the assistance of the Secretary; (2) the resources of State 
and local authorities are overwhelmed and Federal assistance has been 
requested by the appropriate State and local authorities; (3) more than 
one Federal department or agency has become substantially involved in 
responding to the incident; or (4) the Secretary has been directed to 
assume responsibility for managing the domestic incident by the 
President.
---------------------------------------------------------------------------
  <bullet> Homeland Security Presidential Directive--8 (HSPD-8), issued 
        in December 2003, called for a new national preparedness goal 
        and performance measures, standards for preparedness 
        assessments and strategies, as well as a system for assessing 
        the Nation's overall preparedness. According to the HSPD, the 
        Secretary is the principal Federal official for coordinating 
        the implementation of all-hazards preparedness in the United 
        States. In cooperation with other Federal departments and 
        agencies, the Secretary coordinates the preparedness of Federal 
        response assets. In addition, the Secretary, in coordination 
        with other appropriate Federal civilian departments and 
        agencies, is to develop and maintain a Federal response 
        capability inventory that includes the performance parameters 
        of the capability, the time (days or hours) within which the 
        capability can be brought to bear on an incident, and the 
        readiness of such capability to respond to domestic incidents. 
        Last year, the President issued an annex 
        to HSPD-8 intended to establish a standard and comprehensive 
        approach to national planning and ensure consistent planning 
        across the Federal Government.
    After the hurricane season of 2005, Congress passed the Post-
        Katrina Emergency Management Reform Act of 2006, that, among 
        other things, made organizational changes within DHS to 
        consolidate emergency preparedness and emergency response 
        functions within FEMA. Most of the organizational changes, such 
        as the transfer of various functions from DHS's Directorate of 
        Preparedness to FEMA, became effective as of March 31, 2007. 
        According to the act, the primary mission of FEMA is to:

    ``reduce the loss of life and property and protect the Nation from 
        all hazards, including natural disasters, acts of terrorism, 
        and other man-made disasters, by leading and supporting the 
        Nation in a risk-based, comprehensive emergency management 
        system of preparedness, protection, response, recovery, and 
        mitigation.''\13\
---------------------------------------------------------------------------
    \13\ 6 U.S.C. 313(b)(1).

    The act kept FEMA within DHS and enhanced FEMA's responsibilities 
        and its autonomy within DHS.\14\ As a result of the Post-
        Katrina Act, FEMA is the DHS component now charged with leading 
        and supporting the Nation in a risk-based, comprehensive 
        emergency management system of preparedness, protection, 
        response, recovery, and mitigation.
---------------------------------------------------------------------------
    \14\ GAO Homeland Security: Preparing for and Responding to 
Disasters, GAO-07-395T (Washington, DC: Mar. 9, 2007).
---------------------------------------------------------------------------
  dhs has issued and revised national-level preparedness policies to 
                   define roles and responsibilities
DHS Has Taken Action To Revise National Preparedness Policies but 
        Should Plan for Better Integrating Stakeholders in the Future
    DHS has taken action to define national roles and responsibilities 
and capabilities for preparedness and response which are reflected in 
several key policy documents: the National Response Framework, (what 
should be done and by whom); the National Incident Management System 
(NIMS) (how it should be done), and the National Performance Guidelines 
(how well it should be done). To implement requirements of the Homeland 
Security Act of 2002 and HSPDs 5 and 8,\15\ DHS issued initial versions 
of these documents in 2004 (NIMS and the National Response Plan) and 
2005 (National Preparedness Goal) and has developed and issued 
revisions intended to improve and enhance these national-level 
policies. Most recently, the National Response Framework (NRF), the 
successor to the National Response Plan, became effective in March 
2008; it describes the doctrine that guides national response actions 
and the roles and responsibilities of officials and entities involved 
in response efforts. The NRF also includes a Catastrophic Incident 
Annex, which describes an accelerated, proactive national response to 
catastrophic incidents, as well as a Supplement to the Catastrophic 
Incident Annex--both designed to further clarify Federal roles and 
responsibilities and relationships among Federal, State and local 
governments and responders. Together, these documents are intended to 
provide a comprehensive structure, guidance, and performance goals for 
developing and maintaining an effective national preparedness and 
response system.
---------------------------------------------------------------------------
    \15\ The Homeland Security Act of 2002 and HSPD-5 required DHS to 
develop a comprehensive National Incident Management System (NIMS) and 
a comprehensive National Response Plan. Homeland Security Presidential 
Directive-8 (HSPD-8) of December 17, 2003 directed the Secretary of 
Homeland Security to develop a national domestic all-hazards 
preparedness goal.
---------------------------------------------------------------------------
    Because there are a range of Federal and non-Federal stakeholders 
with important responsibilities for emergency preparedness and 
response, it is important that FEMA and DHS include these stakeholders 
in its development and revisions of national policies and guidelines. 
Today we are issuing a report on the process DHS used to revise the 
NRF, including how DHS integrated key stakeholders. DHS included non-
Federal stakeholders in the revision process during the initial months 
when issues were identified and draft segments written, and during the 
final months when there was broad opportunity to comment on the draft 
that DHS had produced. However, DHS deviated from the work plan it 
established for the revision process that envisioned the incorporation 
of stakeholder views throughout the process and did not provide the 
first full revision draft to non-Federal stakeholders for their 
comments and suggestions before conducting a closed, internal Federal 
review of the draft. DHS's approach was also not in accordance with the 
Post-Katrina Act's requirement that DHS establish a National Advisory 
Council (NAC) to incorporate non-Federal input into the revision 
process. Although the NAC was to be established within 60 days of the 
Act (i.e., December 4, 2006), FEMA, which assumed responsibility for 
selecting members, did not name NAC members until June 2007 because of 
the additional time needed to review hundreds of applications and 
select a high quality body of advisors, according to the FEMA 
Administrator. The NAC's first meeting took place in October 2007 after 
DHS issued the revised plan for public comment. We are recommending 
that, as FEMA begins to implement and eventually review the 2008 
National Response Framework, the Administrator develop and disseminate 
policies and procedures describing the conditions and time frames under 
which the next NRF revision will occur and how FEMA will conduct the 
next NRF revision. These policies and procedures should clearly 
describe how FEMA will integrate all stakeholders, including the NAC 
and other non-Federal stakeholders, into the revision process and the 
methods for communicating to these stakeholders. FEMA agreed with our 
recommendation.
    The importance of involving stakeholders, both Federal and non-
Federal, was underscored in our review of The National Strategy for 
Pandemic Influenza (National Pandemic Strategy) and The Implementation 
Plan for the National Strategy for Pandemic Influenza (National 
Pandemic Implementation Plan) which were issued in November 2005 and 
May 2006 respectively, by the President and his Homeland Security 
Council.\16\ Key non-Federal stakeholders, such as state and local 
governments, were not directly involved in developing the National 
Pandemic Strategy and Implementation Plan, even though these 
stakeholders are expected to be the primary responders to an influenza 
pandemic. While DHS collaborated with the Department of Health and 
Human Services (HHS) and other Federal agencies in developing the 
National Pandemic Strategy and Implementation Plan, we found that there 
are numerous shared leadership roles and responsibilities, leaving 
uncertainty about how the Federal Government would lead preparations 
for and response to a pandemic. Although the DHS Secretary is to lead 
overall non-medical support and response actions and the HHS Secretary 
is to lead the public health and medical response, the plan does not 
clearly address these simultaneous responsibilities or how these roles 
are to work together, particularly over an extended period and at 
multiple locations across the country. In addition to the two 
Secretaries, we observed that the FEMA Administrator is now the 
principal domestic emergency management advisor to the President, the 
Homeland Security Council, and the DHS Secretary, pursuant to the Post-
Katrina Act, adding further complexity to the leadership structure in 
the case of an influenza pandemic. Most of these leadership roles and 
responsibilities have not been tested under pandemic scenarios, leaving 
it unclear how they will work. We therefore recommended that DHS and 
HHS work together to develop and conduct rigorous testing, training, 
and exercises for pandemic influenza to ensure that Federal leadership 
roles are clearly defined and understood and that leaders are able to 
effectively execute shared responsibilities to address emerging 
challenges, and ensure these roles are clearly understood by all key 
stakeholders. We also recommended that, in updating the National 
Pandemic Implementation Plan, the process should involve key non-
Federal stakeholders. DHS and HHS agreed with our recommendations, and 
said that they were taking or planned to take actions to implement our 
recommendations.
---------------------------------------------------------------------------
    \16\ GAO, Influenza Pandemic: Further Efforts Are Needed to Ensure 
Clearer Federal Leadership Roles and an Effective National Strategy, 
GAO-07-781 (Washington, DC: Aug. 14, 2007).
---------------------------------------------------------------------------
Presidential Transition Period Poses Challenges for DHS Leadership of 
        National Preparedness Efforts
    As we noted in our report on the preparation for and response to 
Hurricane Katrina issued in September 2006,\17\ clearly defined and 
understood roles and responsibilities are essential for an effective, 
coordinated response to a catastrophic disaster.
---------------------------------------------------------------------------
    \17\ GAO-06-618.
---------------------------------------------------------------------------
    In any administration, the number of political appointees who 
depart rises as the President's term nears an end. Many cabinet 
secretaries and agency heads--in addition to the DHS Secretary and the 
FEMA Administrator--have response responsibilities in a major or 
catastrophic disaster, which could occur at any time. As political 
appointees depart, it is therefore essential that there be career 
senior executives who are clearly designated to lead their respective 
department and agency responsibilities for emergency response and 
continuity of operations. It is also important that they clearly 
understand their roles and responsibilities and have training to 
exercise them effectively.
    DHS has designated career executives to carry out specific 
responsibilities in the transition between Presidential administrations 
and recently provided information to this committee on its transition 
plans. DHS has also contracted with the Council for Excellence in 
Government to map key roles and responsibilities for responding to 
disasters during the transition between administrations. The Council is 
to produce a visual mapping of these roles, plus supplementary 
documentation to support/explicate the mapping. Once those materials 
had been developed, the Council plans to hold a series of trainings/
workshops for career civil servants in acting leadership positions and 
nominated political appointees based on the roles mapped out by the 
Council. In addition, the project includes training and workshops for 
those in acting leadership positions outside DHS.
 dhs has not yet developed comprehensive operational plans and metrics 
                to coordinate federal response resources
DHS Still Developing Ways to Lead National Planning
    DHS is responsible for, but has not yet completed, leading the 
operational planning needed for an effective national response. Two 
essential supplements to the new National Response Framework--Federal 
Partner Response Guides and DHS's Integrated Planning System--are still 
under development. The partner guides are designed to provide a ready 
reference of key roles and actions for Federal, State, local, tribal, 
and private-sector response partners. According to DHS, the guides are 
to provide more specific ``how to'' handbooks tailored specifically to 
the Federal Government and the other non-Federal stakeholders: State, 
local and tribal governments, the private sector and nongovernmental 
organizations. DHS has not established a schedule for completing these 
guides.
    On December 3, 2007, President Bush issued Annex I to HSPD-8, 
entitled National Planning. The Annex describes the development of a 
national planning system in which all levels of government work 
together in a collaborative fashion to create plans for various 
scenarios and requires that DHS develop a standardized, integrated 
national planning process. This Integrated Planning System (IPS) is 
intended to be the national planning system used to develop interagency 
and intergovernmental plans based upon the National Planning Scenarios. 
The National Response Framework states that local, tribal, State, 
regional, and Federal plans are to be mutually supportive. Although the 
Annex calls for the new system to be developed in coordination with 
relevant Federal agencies and issued by February 3, 2008, DHS has not 
yet completed the IPS, and HSPD-8 Annex 1 (i.e. the White House) does 
not lay out a timeframe for release of the IPS.
    According to FEMA's Administrator, the agency's National 
Preparedness Directorate, in coordination with its Disaster Operations 
Directorate and the DHS's Office of Operations Coordination, has begun 
to develop a common Federal planning process that will support a family 
of related planning documents. These related planning documents will 
include strategic guidance statements, strategic plans, concept plans, 
operations plans, and tactical plans. The Annex to HSPD-8 is designed 
to ``enhance the preparedness of the United States by formally 
establishing a standard and comprehensive approach to national 
planning'' in order to ``integrate and effect policy and operational 
objectives to prevent, protect against, respond to, and recover from 
all hazards.'' According to the Administrator, FEMA continues to be a 
significant contributor to the draft IPS, and will also be involved in 
developing the family of plans for each of the national planning 
scenarios as required by the Annex.
    In following up on the status of recommendations we made after 
Hurricane Katrina related to planning for the evacuation of 
transportation disadvantaged populations,\18\ we found that DHS's 
leadership in this area had led to the implementation of some, but not 
all of our recommendations.\19\ For example, we recommended that DHS 
clarify within the National Response Plan that FEMA is the lead and 
coordinating agency to provide evacuation assistance when State and 
local governments are overwhelmed, and clarify the supporting Federal 
agencies' responsibilities. In April 2008, we noted that DHS's draft 
Mass Evacuation Incident Annex to the National Response Framework 
appears to clarify the role of FEMA and supporting Federal agencies, 
although the annex is still not finalized. Similarly, we recommended 
that DHS improve its technical assistance by, among other things, 
providing more detailed guidance on how to plan, train, and conduct 
exercises for the evacuation of transportation disadvantaged 
populations. DHS had developed basic guidance on the evacuation of 
transportation disadvantaged populations and was currently working on 
targeted guidance for States and localities. However, we had also 
recommended that DHS require, as part of its grant programs, all State 
and local governments plan, train, and conduct exercises for the 
evacuation of transportation-disadvantaged populations, but DHS had not 
done so. DHS agreed to consider our recommendation.
---------------------------------------------------------------------------
    \18\ GAO, Disaster Preparedness: Limitations in Federal Evacuation 
Assistance for Health Facilities Should be Addressed, GAO-06-826 
(Washington, DC: July 20, 2006) and Transportation-Disadvantaged 
Populations: Actions Needed to Clarify Responsibilities and Increase 
Preparedness for Evacuations, GAO-07-44 (Washington, DC: Dec. 22, 
2006).
    \19\ GAO, Status of Implementation of GAO Recommendations on 
Evacuation of Transportation-Disadvantaged Populations and Patients and 
Residents of Health Care Facilities, GAO-08-544R (Washington, DC: Apr. 
1, 2008).
---------------------------------------------------------------------------
    We also recommended that DHS clearly delineate how the Federal 
Government will assist State and local governments with the movement of 
patients and residents out of hospitals and nursing homes to a 
mobilization center where National Disaster Medical System (NDMS) \20\ 
transportation begins. DHS and HHS have collaborated with State and 
local health departments in hurricane-prone regions to determine gaps 
between needs and available resources for hospital and nursing home 
evacuations and to secure local, State, or Federal resources to fill 
the gaps. Based on this analysis, HHS and DHS contracted for ground and 
air ambulances and para-transit services for Gulf and East Coast 
States.
---------------------------------------------------------------------------
    \20\ Under the Pandemic and All-Hazards Preparedness Act, primary 
authority for the National Disaster Medical System was transferred from 
DHS to HHS in January 2007. HHS and DHS are collaborating to implement 
this recommendation.
---------------------------------------------------------------------------
    At a more tactical level of planning, FEMA uses mission assignments 
to coordinate the urgent, short-term emergency deployment of Federal 
resources to address disaster needs. Mission assignments may be issued 
for a variety of tasks, such as search and rescue missions or debris 
removal, depending on the performing agencies' areas of expertise. 
According to DHS, the Department has agreements and pre-scripted 
mission assignments with 31 Federal agencies for a total of 223 
assignments that essentially pre-arrange for the deployment of health 
equipment, a national disaster medical system, military equipment, and 
a whole host of other services in the event that they are necessary to 
support a State or a locality. FEMA officials said these assignments 
are listed in the operational working draft of the ``Pre-Scripted 
Mission Assignment Catalogue,'' which FEMA intends to publish this 
month.
    We have previously made recommendations aimed at improving FEMA's 
mission assignment process and FEMA officials concurred with our 
recommendations and told us that they are reviewing the management of 
mission assignments.\21\ In addition, reviews by the DHS OIG regarding 
mission assignments concluded that FEMA's management controls were 
generally not adequate to ensure that deliverables (missions tasked) 
met requirements; costs were reasonable; invoices were accurate; 
Federal property and equipment were adequately accounted for or 
managed; and FEMA's interests were protected.
---------------------------------------------------------------------------
    \21\ GAO, Disaster Relief: Government-wide Framework Needed to 
Collect and Consolidate Information to Report on Billions in Federal 
Funding for the 2005 Gulf Coast Hurricanes, GAO-06-834 (Washington, DC: 
Sept. 6, 2006).
---------------------------------------------------------------------------
    According to the DHS OIG, mission assignment policies, procedures, 
training, staffing, and funding have never been fully addressed by 
FEMA, creating misunderstandings among Federal agencies concerning 
operational and fiduciary responsibilities and FEMA's guidelines 
regarding the mission assignment process, from issuance of an 
assignment through execution and close-out, are vague. Reflecting upon 
lessons learned from Hurricane Dean, the California wildfires, and the 
national-level preparedness exercise for top officials in October 2007, 
FEMA's Disaster Operations Directorate formed an intra/interagency 
Mission Assignment Working Group to review mission assignment processes 
and procedures and develop recommendations for the management of 
mission assignments, according to the OIG. Most recently, we reported 
\22\ on mission assignments for emergency transit assistance and 
recommended that DHS draft prescripted mission assignments for public 
transportation services to provide a frame of reference for FEMA, FTA, 
and State transportation departments in developing mission assignments 
after future disasters. DHS agreed to take our recommendation under 
consideration.
---------------------------------------------------------------------------
    \22\ GAO, Emergency Transit Assistance: Federal Funding for Recent 
Disasters, and Options for the Future, GAO-06-243 (Washington, DC: Feb. 
15, 2008).
---------------------------------------------------------------------------
DHS Still Developing Ways To Define and Measure Federal Agencies' 
        Capabilities
    DHS issued an update to the national goal for preparedness in 
National Preparedness Guidelines in September 2007 to establish both 
readiness metrics to measure progress, and a system for assessing the 
Nation's overall preparedness and response capabilities. However, DHS 
has not yet completed efforts to implement the system and has not yet 
developed a complete inventory of all Federal response capabilities. 
According to the September 2007 Guidelines, DHS was still establishing 
a process to measure the Nation's overall preparedness based on the 
Target Capabilities List (TCL), which accompanies the Guidelines. Our 
ongoing work on national preparedness and the national exercise program 
is reviewing DHS's plans and schedules for completing this process.
    In the Guidelines, the description for each capability includes a 
definition, outcome, preparedness and performance activities, tasks, 
and measures and metrics that are quantitative or qualitative levels 
against which achievement of a task or capability outcome can be 
assessed. According to the Guidelines, they describe how much, how 
well, and/or how quickly an action should be performed and are 
typically expressed in a way that can be observed during an exercise or 
real event. The measures and metrics are not standards, but serve as 
guides for planning, training, and exercise activities. However, the 
Guidelines do not direct development of capabilities to address 
national priorities to Federal agencies. For example, for the national 
priority to ``Strengthen Interoperable and Operable Communications 
Capabilities'' the Guidelines state that interoperable and operable 
communications capabilities are developed to target levels in the 
States, tribal areas, territories, and designated urban areas that are 
consistent with measures and metrics established in the TCL; Federal 
agencies' interoperability is not addressed.
    Prior disasters and emergencies, as well as State and Urban Area 
Homeland Security Strategies and status reports on interoperable 
communications, have shown persistent shortfalls in achieving 
communications interoperability.\23\ These shortfalls demonstrate a 
need for a national framework fostering the identification of 
communications requirements and definition of technical standards. 
State and local authorities, working in partnership with DHS, need to 
establish State-wide interoperable communications plans and a national 
interoperability baseline to assess the current state of communications 
interoperability. Achieving interoperable communications and creating 
effective mechanisms for sharing information are long-term projects 
that require Federal leadership and a collaborative approach to 
planning that involves all levels of government as well as the private 
sector. In April 2007, we reported \24\ that DHS's SAFECOM program 
intended to strengthen interoperable public safety communications at 
all levels of government had made limited progress in and had not 
addressed interoperability with Federal agencies, a critical element to 
interoperable communications required by the Intelligence Reform and 
Terrorism Prevention Act of 2004.\25\ We concluded that the SAFECOM 
program has had a limited impact on improving communications 
interoperability among Federal, State, and local agencies. The 
program's limited effectiveness can be linked to poor program 
management practices, such as the lack of a plan for improving 
interoperability across all levels of government, and inadequate 
performance measures to fully gauge the effectiveness of its tools and 
assistance. We recommended, among other things, that DHS develop and 
implement a program plan for SAFECOM that includes goals focused on 
improving interoperability among all levels of government. DHS agreed 
with the intent of the recommendation and stated that the Department 
was working to develop a program plan.
---------------------------------------------------------------------------
    \23\ According to the National Preparedness Guidelines, 
communications interoperability is the ability of public safety 
agencies (including police, fire, EMS, etc.) and service agencies 
(including public works, transportation, hospitals, etc.) to talk 
within and across agencies and jurisdictions via radio and associated 
communications systems; exchange voice, data, and/or video with one 
another on demand; and do so in real time, when needed, and when 
authorized.
    \24\ GAO, First Responders: Much Work Remains to Improve 
Communications Interoperability, GAO-07-301 (Washington, DC: April 2, 
2007).
    \25\ Intelligence Reform and Terrorism Prevention Act of 2004, Pub. 
L. No. 108-458, section 7303, 118 Stat. 3638, 3843-44, Dec. 17, 2004.
---------------------------------------------------------------------------
    DHS had also not yet developed a complete inventory of Federal 
capabilities, as we reported in August 2007,\26\ in assessing the 
extent to which DHS has met a variety of mission and management 
expectations. As a result, earlier this year Senate Homeland Security 
and Governmental Affairs Committee sent letters requesting information 
from 15 agencies with responsibilities under the National Response 
Framework to respond in the event of a nuclear or radiological 
incident. The committee asked for information on a variety of issues--
for example, about evacuation, medical care, intelligence, forensics, 
and tracking fallout--to assess agencies' current capabilities and 
responsibilities in the event of a nuclear attack. Other Federal 
agencies also need this information from DHS; in reviewing the 
Department of Defense's (DOD) coordination with DHS, we reported in 
April 2008 that DOD's Northern Command (NORTHCOM) has difficulty 
identifying requirements for capabilities it may need in part because 
NORTHCOM does not have more detailed information from DHS on the 
specific requirements or capabilities needed from the military in the 
event of a disaster.
---------------------------------------------------------------------------
    \26\ GAO-07-454.
---------------------------------------------------------------------------
     This concludes my statement. I would be pleased to respond to any 
questions that you or other Members of the subcommittee may have at 
this time.

    Mr. Carney. I now recognize Ms. Wormuth for 5 minutes.

STATEMENT OF CHRISTINE E. WORMUTH, SENIOR FELLOW, INTERNATIONAL 
   SECURITY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Ms. Wormuth. Chairman Carney, Ranking Member Rogers, and 
Members of the subcommittee, thanks very much for asking me to 
testify at this hearing. It is a critically important subject.
    In my view, America is not ready for the next catastrophe; 
and we are not ready as a Nation, it is not just DHS and the 
Federal Government. We have made progress since 9/11 and since 
Hurricane Katrina in 2005, but we have a ways to go.
    I would like to focus today on seven problem areas and some 
recommendations that we have put forward that I think would at 
least help the Federal Government become more prepared.
    Our new report, which I will shamelessly promote here, is 
called ``Managing the Next Domestic Catastrophe: Ready (Or 
Not)'', and you can find it on the CSIS Web site. It talks 
about this in much more detail.
    We don't have time to talk a lot about the progress that 
DHS has made, but they have made progress; and I particularly 
would like to say, I am a big proponent of the Incident 
Management Planning Team. Nevertheless, a lot of work remains. 
So I will focus on the problem areas.
    First, because the mission of securing the homeland is 
inherently an interagency mission at the Federal level, it is 
essential that the White House play a very strong leadership 
role in developing and implementing policy. For many reasons, 
this Homeland Security Council and its staff has not been able 
to do that, in my view. The next administration, I believe, 
would be well served to merge the Homeland Security Council and 
National Security Council and their staff into a single, strong 
organization. A merged, strong NSC would be an empowered 
partner that DHS needs, frankly, to make sure they are getting 
the interagency cooperation to do things like build integrated 
plans.
    Second, DHS, in my view, is not sufficiently empowered to 
function as the incident manager at the Federal level, as is 
envisioned in HSPD-5. This is, in part, because in paper and in 
practice the Federal relationships, as Mr. Jenkins stated, are 
not really still very clear.
    For example, the division of labor between DHS and the 
Department of Justice, particularly the FBI, in terms of 
preventing terrorist attacks here at home, is not very clear. 
In a similar vein, HSPD-5 grants a lot of leeway to the 
Secretary of Defense to determine, short of direction from the 
President, whether DOD will provide military forces during a 
catastrophe.
    I do think the SECDEF should retain command and control 
over military forces. Of course, the Attorney General should 
have primacy in law enforcement issues, but the next President, 
in my view, should revise HSPD-5 to make clear that when it 
comes to the role of Federal coordinator for incident 
management, the Secretary of Homeland Security is first among 
equals in the Cabinet and has the responsibility to manage 
competing priorities during a catastrophe.
    To further empower the Secretary, I think the chain of 
command inside of DHS needs to be clarified. As the Federal 
coordinator for incident management, the Secretary is the 
official accountable to the President. The FEMA Administrator 
is the principal advisor to the President and to the Secretary 
on emergency management and can advise the President directly, 
but the Secretary as the overall coordinator has the 
responsibility and the authority to put those recommendations 
into a larger context. This needs to be made clearer than it is 
today.
    Third, the ability of DHS to manage the next catastrophe I 
think is also constrained, frankly, by just the traditional 
Stafford Act mechanisms for disaster assistance. It is not 
clear that the traditional Stafford Act mechanisms are going to 
be sufficient if we have a nuclear detonation here at home.
    Moving beyond these mechanisms I think is going to be very 
sensitive because it gets into the issue of the balance of 
power between the Federal Government and the States. But this 
is something I think that DHS, the President, and the Governors 
should be talking about much more openly, given the threats we 
face today.
    Fourth, for a variety of reasons, I would say the Federal 
Government still doesn't have a working process to get detailed 
interagency plans developed. We have made progress. The IMPT is 
a major step forward. But we still don't have detailed plans 
that leaders can take off the shelf and adapt during a crisis 
that are approved, frankly, and agreed to by all of the 
interagency. I think a merged NSC exercising a real leadership 
role would help us get those plans.
    Fifth, and closely related to the planning issue, is the 
fact that we do not yet have developed requirements for the 
Federal Government for what we actually need in terms of 
capabilities to be able to respond to a disaster. DHS very 
much, in my view, needs to take the lead in developing these 
requirements, figuring out what capabilities we need, what we 
already have, where there are gaps, and which agencies should 
be responsible for which capabilities.
    Sixth, DHS faces, frankly, I think, as you all know, a very 
complicated oversight structure here in Congress. There are 
more than 70 committees and subcommittees overseeing DHS, which 
means that DHS officials spend a lot of time up here on the 
Hill trying to answer all of the issues. Frankly, it has been a 
challenge, I think, for Congress to develop a core set of 
Members who have deep expertise in these matters because every 
single Senator and almost every Member of the House has some 
sort of oversight over the Department.
    We really very much need reform, as many have noted.
    Finally, DHS has been basically, in my view, almost 
reorganized to its knees. This has created an incredible amount 
of turbulence. The morale of the work force is low. There is a 
lot of turnover with senior people. While DHS will be a very 
tempting target for the new administration to reorganize, a 
major reorganization right out of the gates, I think, would 
actually be very counterproductive. DHS needs time to mature, 
and reorganization is not a panacea.
    Thank you very much for the opportunity to testify, and I 
am happy to take questions.
    Mr. Carney. I thank you for your testimony.
    [The statement of Ms. Wormuth follows:]
               Prepared Statement of Christine E. Wormuth
                             June 11, 2008
    Chairman Carney, Ranking Member Rogers, and Members of the 
subcommittee, thank you for inviting me to testify on the readiness of 
the Department of Homeland Security to manage the next catastrophe. It 
is a subject of critical importance and I am honored to have the 
opportunity to share my views with you.
    I would like to focus in my remarks on where DHS has made progress 
toward preparing to lead during the next catastrophe and where there 
are still problem areas, and offer some recommendations on how to 
address the challenges that remain. I will focus on how DHS--and the 
Federal Government as a whole--is organized to manage catastrophic 
events, whether roles and missions for incident management are clear 
and well understood, and whether the processes we have in place to 
prepare for and respond to a catastrophe are sufficient.
    In my view, America is not ready for the next catastrophe. We are 
not ready as a Nation--it is not just DHS and the rest of the Federal 
Government. We have certainly made progress since the September 11 
attacks and the response to Hurricane Katrina in 2005, but there are 
still a number of very pressing problem areas that urgently need to be 
fixed. This is a national challenge and one that concerns not just the 
Federal Government but State and local governments, the private sector, 
the nonprofit sector and individual citizens, but I am going to limit 
my comments for this hearing to primarily what needs to be done at the 
Federal level. I would like to focus on seven problem areas and make 
some recommendations in each area that I believe would make the Nation 
better prepared for the next catastrophe, whatever it might be. One of 
my colleagues at CSIS, Anne Witkowsky, and I just published a report 
last week called Managing the Next Catastrophe: Ready (Or Not) that 
discusses these recommendations and several more in much more detail. 
It can be found on the CSIS Web site, which is www.csis.org.
                                progress
    Before leaping into a discussion of what still needs to be done, it 
is important to note at least briefly where DHS has made progress in 
terms of preparing for future catastrophes. Although the Department has 
a very complex and difficult mission and is a very young bureaucracy, 
it has taken steps to improve the preparedness of this Nation. DHS 
published the new National Response Framework--the successor to the 
National Response Plan--in January 2008. The NRF describes the basic 
framework for how the Federal Government will work with State and local 
entities during disasters. The NRF is shorter, clearer and easier to 
read than its predecessors, and should help stakeholders at all levels 
gain a better understanding of what they are supposed to do during a 
crisis, and what organizations will be in place to coordinate response 
efforts.
    At the direction of Congress, DHS also has taken steps to 
strengthen FEMA. FEMA's relationship to the rest of DHS has been 
clarified, it now has direct responsibility for most preparedness 
issues, and it is revitalizing its regional offices throughout the 
country, which should help synchronize Federal, State and local 
activities. Of particular note is the emphasis FEMA and other DHS 
components have placed on working with State and local governments to 
improve planning and preparedness for hurricanes and other challenges 
such as pandemic flu.
    In the last 2 years, DHS also has made catastrophic planning a 
major focus area and has devoted considerable time and energy to 
planning issues. In 2006 the Department created the Incident Management 
Planning Team to lead an interagency effort to build plans designed to 
address the challenges described in the fifteen National Planning 
Scenarios. FEMA has its own planning cell, the Operational Planning 
Unit. In December 2007 the Homeland Security Council issued Annex 1 to 
HSPD-8, which calls for DHS to lead the development of a new Integrated 
Planning System to build a more formal and standardized planning system 
for catastrophes. It is very positive that DHS, and to a degree the 
larger interagency, has placed so much focus on strengthening 
catastrophic planning and trying to engage the entire interagency in 
this process. At the same time, despite all of the time and energy that 
has been spent on planning in the last 2 years, there is still little 
to show for these efforts in terms of concrete plans that Government 
leaders could take off the shelf and adapt for use during a crisis.
                                problems
    Despite progress that has been made, a number of problems remain 
that require the urgent attention of the next President and his 
administration.
    First, because the mission of securing the homeland and preparing 
to manage a domestic catastrophe is inherently an interagency mission 
at the Federal level--and no one Cabinet Secretary has authority over 
another--it is essential the White House play a strong role in these 
areas. To date, this White House has not played a strong enough role in 
developing preparedness policies or in overseeing their implementation. 
The Homeland Security Council and its staff is overshadowed by the 
National Security Council organization, and it was not reassuring that 
the position of Homeland Security Adviser was left vacant recently for 
about 4 months.
    The next administration would be well served to merge the Homeland 
Security Council and National Security Council and their staffs into a 
single strong organization that plays a central role in developing 
Federal homeland security policy and in overseeing its implementation. 
A newly merged, strong NSC would be the empowered partner that DHS 
needs to ensure that all members of the interagency are working 
together to build integrated plans for catastrophes and developing the 
necessary capabilities to respond quickly and effectively during a 
crisis.
    Second, although DHS is named in HSPD-5 as the Federal coordinator 
for management of a domestic incident, DHS is not sufficiently 
empowered for this role, in part because on paper and in practice, 
Federal relationships in this area are still unclear and somewhat 
confusing. While I do not advocate that the Secretary of Homeland 
Security be given directive authority over other Cabinet officials, I 
do argue the Secretary of Homeland Security should be the ``first among 
equals'' when it comes to preparing for and managing catastrophes. 
While the Homeland Security Act of 2002 states that a primary mission 
of DHS is to prevent terrorist attacks within the United States, HSPD-5 
states that the Attorney General will coordinate the activities of 
other members of the law enforcement community to prevent terrorist 
attacks. The division of labor between DHS and the Department of 
Justice, in particular the FBI, is not entirely clear, most notably in 
terms of who during a catastrophe has the authority, short of the 
President, to resolve conflicts between law enforcement objectives and 
other equally crucial objectives, such as saving lives. In a similar 
vein, HSPD-5 makes clear that short of direction from the President, 
the Secretary of Defense has considerable leeway to determine whether 
to provide military forces for civil support missions. If a catastrophe 
were to occur tomorrow, the Secretary of Homeland Security does not 
have the authority to immediately require the Defense Department to 
provide military forces to aid in the response. In many instances this 
lack of official authority might never become an issue--DoD might well 
lean forward to assist DHS--but if there were any disagreement about 
priorities, time spent resolving that disagreement and bringing it to 
the President translates into lives lost on the ground.
    The next President, with help from Congress, should make clear that 
as the Federal coordinator for incident management, the Secretary of 
Homeland Security is first among equals relative to other Cabinet 
officials during a major domestic incident. HSPD-5 should be revised to 
clarify Federal roles and responsibilities, particularly those of DHS, 
the Department of Justice and the Department of Defense. The Secretary 
of Defense should retain command and control over military forces, and 
the Attorney General should have primacy in law enforcement issues, but 
a revised HSPD-5 should make clear that the responsibility for managing 
competing priorities belongs to the Secretary of Homeland Security 
during a catastrophe.
    Although our form of Government does not allow for unity of command 
at the Federal level in a military sense, the chain of command inside 
DHS does need to be clarified. Even with the new NRF and the Post-
Katrina Emergency Management Reform Act, it is not clear how the FEMA 
Administrator relates to the Secretary of Homeland Security during a 
crisis, and the Principal Federal Official (PFO) does not have 
authority over the Federal Coordinating Officer (FCO), despite all of 
the confusion about the roles of the PFO and FCO during the response to 
Hurricane Katrina.
    The next President and Congress should clarify the DHS chain of 
command during catastrophes. As the Federal coordinator for incident 
management, the Secretary of Homeland Security is the official 
accountable during a crisis to the President. The FEMA Administrator is 
the principal adviser to the President and the Secretary of Homeland 
Security on emergency management and can advise the President directly 
on these matters, but as the overall incident manager, the Secretary of 
Homeland Security has the authority to put the advice of the FEMA 
Administrator into a larger context. On the ground, there should be a 
single DHS senior official that reports to the Secretary through the 
FEMA Administrator. Clearly during catastrophes the senior DHS official 
that is managing the political aspects of the crisis and reaching out 
to the public and press cannot also be the person who is coordinating 
the actual provision of Federal assistance, but that operational person 
needs to report to the senior DHS person on the ground. You cannot have 
unity of effort if there are two senior DHS officials on the ground 
reporting to different people in Washington, without any authority over 
each other. In our report we call for a new position--the Lead Federal 
Coordinator--who reports to the Secretary through the FEMA 
Administrator and who has a deputy with the authorities of the FCO. It 
doesn't matter what you call this--you could retain the title of 
Principal Federal Official or eliminate the PFO position and retain 
only the FCO title--but the key is to have DHS personnel on the ground 
speaking with one voice, and only one senior DHS official reporting 
back to Washington.
    Third, DHS's ability to manage the next catastrophe is constrained 
by the fact that the traditional Stafford Act mechanisms to respond to 
disasters are probably not sufficient to manage an actual catastrophe--
something like the detonation of a nuclear device or the simultaneous 
explosions of dirty bombs in a handful of cities around the country. 
The formal process of making a Presidential declaration of emergency, 
requiring a request for assistance from a State government and then 
parsing out those requests to the various Federal agencies to be filled 
is simply too slow and linear to be effective during a catastrophe. In 
a similar vein, while the Stafford Act gives the Federal Government the 
authority to provide accelerated assistance to save lives, prevent 
suffering and mitigate severe damage, as a matter of policy, DHS and 
other agencies cannot forward deploy assets into a State without 
permission from the State government. Moving beyond traditional 
Stafford Act assistance mechanisms is a very sensitive area because it 
gets into the balance of power between the Federal Government and those 
of the 50 States, but given the threats we face in the post-9/11 
environment, it is important that we start talking more openly about 
these issues.
    The next administration should work with Congress and State 
Governors to develop a more streamlined process to provide Federal help 
that balances the sovereign rights of the States. A minimalist approach 
might be to explore how to revise current policies to better reflect 
the authority the Stafford Act already grants the Federal Government to 
provide accelerated assistance. This could include development of 
policies that would enable the Federal Government under certain extreme 
circumstances to deploy directly into States and begin directing 
Federal assets. A more fundamental approach might be to amend an 
existing law, such as the Defense Against Weapons of Mass Destruction 
Act, and create a sort of analogue to the Stafford Act explicitly 
designed to address the provision of Federal assistance during a 
catastrophe when a State government is incapacitated and unable to 
carry out some or all of its functions.
    Fourth, for a variety of reasons, the Federal Government has yet to 
put in a place a working process to develop detailed plans for how to 
respond to various catastrophes. We have the fifteen National Planning 
Scenarios, but in terms of plans all we have is the NRF, which as you 
know is really just a blueprint for organizational relationships. The 
NRF is not a plan in the sense of describing what tasks need to be 
done, what capabilities are needed to execute those tasks, and how 
quickly capabilities need to be put on-scene. To truly be prepared for 
the next catastrophe, DHS and the rest of the interagency--not to 
mention State governments--need to have these kinds of more detailed 
plans, which would at least provide a baseline for action that could be 
modified as needed during a crisis.
    Once again, developing these kinds of plans is fundamentally an 
interagency undertaking. As such, a merged NSC and its staff need to 
take a leadership role in ensuring these plans are developed, and just 
as importantly, that the capabilities they call for are fed into the 
resourcing process for the Federal Government. Plans developed at the 
Federal level need to be linked to plans at the State and local level. 
The FEMA regional offices, if fully realized, provide a ``one stop 
shop'' for that kind of coordination at the regional level, and the 
very new effort to build Task Forces for Emergency Readiness at the 
State level is another mechanism that could link State and Federal 
plans together in a much more meaningful way than we have achieved so 
far.
    Fifth, and very closely related to the planning issue, is the lack 
of defined requirements or capabilities for what the Federal Government 
needs to respond to catastrophes. CSIS has highlighted this shortcoming 
in reports published in 2005 and 2006--and in our new report, and the 
Commission on National Guard and Reserves also highlighted this 
problem, as has the GAO in numerous reports. DHS has got to take the 
lead in identifying what capabilities are needed, what the Federal 
Government already has, what gaps might need to be filled, and which 
agencies should be responsible for which capabilities. OMB and NSC 
together need to track this process and ensure that agency budgets 
submitted to Congress include funding for identified requirements. 
Until we get these requirements defined, Cabinet agencies are unlikely 
to invest in developing them and hence it is very hard to make progress 
toward being prepared, no matter what organizational charts and other 
processes we have in place.
    DHS has many internal challenges, but a major external drag on its 
effectiveness and its ability to prepare for future catastrophes is the 
byzantine oversight structure it faces in Congress. DHS is overseen by 
more than 70 committees and subcommittees--maybe more. While about 80 
percent of DoD's oversight is concentrated in six committees, every 
single Senator and almost every Member of the House of Representatives 
have some degree of oversight over DHS business. This incredibly 
complicated oversight structure undercuts the effectiveness of the 
Federal homeland security enterprise in a number of ways. For example, 
senior DHS officials spend an inordinate time on the Hill trying to be 
responsive to their many masters. Oversight is critical, but at the 
same time DHS leaders must have sufficient time to focus on their 
primary responsibility, which is to develop and oversee the 
implementation of policies to ensure the security of the homeland and 
prevent terrorist attacks. At the same time, the lack of a center of 
gravity in the House and Senate for oversight of DHS has undermined the 
ability of Congress to conduct this very central responsibility and 
weakened congressional efforts to develop a core group of Members with 
deep expertise in homeland security matters.
    Many have called for reform of the congressional oversight process 
for homeland security, most notably the 9/11 Commission. Efforts to 
streamline the oversight structure to date have not made much progress, 
but there is no question that Congress could greatly strengthen the 
Federal Government's homeland security enterprise if it substantially 
simplified its oversight structure in this area.
    Although I am recommending a number of changes for DHS, the final 
problem area I want to highlight is the fact that the constant 
reorganizations of DHS that have characterized its short history to 
date have undercut its effectiveness. DHS has experienced so much 
bureaucratic turbulence it is a wonder any progress has been made. The 
constant battles between FEMA and DHS headquarters have left a lot of 
blood on the floor, the morale of the DHS workforce tends to rank among 
the lowest in the entire Government, and turnover of senior DHS 
officials has been substantial.
    DHS's generally poor reputation in the executive branch and in 
Congress will make it extremely tempting for a new administration to 
launch a massive reorganization. That said, I believe that yet another 
dramatic reorganization of DHS would be among one of the worst ways to 
try to improve the Nation's preparedness. Major structural reforms 
right away would be highly disruptive, painfully time-consuming and at 
the end of the day would probably yield little in the way of results. 
DHS should be allowed to mature. DoD took 40 years to evolve from the 
War Department into the Defense Department, and it took another 20 
years for the Goldwater-Nichols reforms to transform DoD into the 
integrated agency it is today. Without question DHS has to make more 
progress in the next 8 years than it has in the last 5 years or so, but 
reorganization is not a panacea.
                          concluding thoughts
    I've focused on problems in my statement, but it is important not 
to lose sight of all that DHS has done, particularly in light of all of 
the obstacles it faces as a new and very large Federal department. At 
the same time, what matters to most Americans is not how far we have 
come, but how far we still have to go in terms of being prepared for 
the next catastrophe. Implementing the recommendations I've discussed 
this morning would not solve all of the problems we face in terms of 
improving our preparedness, but they would move the Federal Government 
much closer to where it needs to be in this area. Thank you very much 
for the opportunity to share these views with you; it is a privilege to 
be asked to comment on such an important issue for our country.

    Mr. Carney. The Chair now recognizes Mr. Walker for 5 
minutes.

STATEMENT OF JAMES M. WALKER, JR., DIRECTOR, ALABAMA DEPARTMENT 
  OF HOMELAND SECURITY, ACCOMPANIED BY BROCK LONG, DIRECTOR, 
               STATE EMERGENCY MANAGEMENT AGENCY

    Mr. Walker. Thank you, Mr. Chairman. It is nice to appear 
before you again. I am deeply humbled by your recognition of my 
military service, and I would also like to return the 
compliment to you for your military service.
    Mr. Carney. Thank you very much, sir.
    Mr. Walker. Sir, I got a chance to listen to the other 
witnesses today. I know that my statement will go in the 
record. I would like to summarize real quick.
    We talk about the main thing, but the main thing for us is 
our citizens. In Alabama, we work pretty hard to promote 
personal responsibility. Somewhere along the line, somebody 
told people that we are supposed to do everything for 
everybody, and that is not necessarily the truth. They have got 
to take responsibility for themselves.
    At the State level, we have got to invest and empower our 
first responders, and some of the programs in my testimony talk 
about things like Virtual Alabama, where we put situational 
awareness into the hands of the first responders. We spend a 
lot of time talking about what decision-makers in Washington 
know or what they should know. But I think it is a lot more 
important that the people actually turning the wrenches and 
shovels, what do they know and when do they know it, because 
they are the ones doing the heavy lifting for this country.
    Ninety-nine percent of what happens in this country happens 
outside the Beltway and down in our State and local 
communities. That is really where we need to put the focus, but 
there is a bit of a disconnect.
    You mentioned getting on board with Federal agencies. How 
about getting on board with the States and locals and the 
millions of first responders who have an investment in not only 
their country, but in their community and what we are doing for 
them?
    I can't thank you enough for the homeland security grant 
dollars that the Congress has sent down to the States and 
locals. They have made an incredible difference. We actually 
come up with some pretty good ideas and some pretty innovative 
programs. That can actually occur. Things can really happen and 
go really well that weren't contrived here inside the Beltway. 
We have got a few in Alabama, and they are embedded in my 
testimony.
    As a former military person, the best way that I can 
describe the dynamics that are going on is when I was an Army 
officer in the late 1990's. We were immersed in the Balkans, 
and the active Army was doing all the heavy lifting for the 
Department of Defense, or the active components were. We 
realized the operational tempo was killing the active Army. So 
a decision was made to send a National Guard division to 
Bosnia. You could hear this huge sucking sound come out of the 
Pentagon: We can't send a National Guard unit to do what we see 
as an active Army mission.
    Well, they did it and the unit performed magnificently. As 
a result, we have had more Guard units. As you know, the op 
tempo now among the National Guard in Southwest Asia, they have 
become part of the fighting force. There is no ``we/they'' 
mentality between the active force and the Reserve components 
and the Guard.
    The same thing is going to happen with the Federal 
Department of Homeland Security if you consider they are the 
active Army and those of us in the trenches are the National 
Guard. There is going to be a tipping point where they realize 
they can't do it without us. They can't do the border and 
immigration functions, they can't do the disaster response.
    The emphasis needs to be where we are, and eventually we 
are going to tip this thing where they realize that we are an 
eager and welcome partner, and there is nothing that we can't 
do. We have got a vested interest because we are living with 
those citizens. We are down there in the cities of Main Street 
with them, as our first responders are also empowering us and 
would be incredibly useful, and we have got to continue to do 
that.
    So that is the crux of my testimony today, Mr. Chairman.
    We spend a lot of time talking about personal 
responsibility and engaging our citizens. We passed a couple of 
public safety announcements that were privately donated to the 
State of Alabama. With your indulgence, I would ask the clerk 
to hit the button and you can see a couple of these examples we 
have in Alabama.
    Mr. Carney. So ordered.
    [VIDEO PLAYED.]
    Mr. Walker. Thank you, Mr. Chairman. That just emphasizes 
that we are trying to promote personal responsibility and make 
the ``main thing'' the main thing, give our first responders 
the equipment and the intelligence that they need, and then 
partner with the Federal Government and try to bridge that 
disconnect between the heavy lifting that is being done in our 
communities that is translated back in the interfaces there.
    So I look forward to any questions you may have. Thank you, 
sir.
    [The statement of Mr. Walker follows:]
               Prepared Statement of James M. Walker, Jr.
                             June 11, 2008
    Mr. Chairman and Members of the committee, thank you for the 
opportunity to appear before you today representing State and local 
interests during this important hearing.
    As Director of the Alabama Department of Homeland Security, it is 
my responsibility to manage the homeland security preparedness programs 
and initiatives Governor Bob Riley wants in place to serve Alabama's 
citizens and communities. During these past 5 years of the Riley 
administration in Alabama, our State has seen exponential improvements 
in first responder capabilities, citizen preparedness, and situational 
awareness.
    Alabama has suffered the wrath of three major hurricanes and a 
tropical storm in the past 5 years. Each storm allowed us to learn 
valuable lessons about what it takes to manage a catastrophe on a broad 
scale. In every instance, we reviewed our tactics, techniques, and 
procedures with experience as our guide and made adjustments as 
required. Just recently, Governor Riley declared that Alabama is as 
ready as it has ever been for the start of yet another hurricane 
season.
    Alabama's current high state of preparedness is due to many 
factors. First, the Federal homeland security grants appropriated by 
the Congress and awarded to each State by the Department of Homeland 
Security have proved invaluable to Alabama, and to every other State 
and territory in our country. These appropriations have allowed us to 
build much-needed homeland security capabilities, better equip our 
first responders, train and exercise our techniques and procedures, and 
engage our citizens in ways never before possible.
    The success of these grants, I believe, is rooted in the idea that 
99 percent of the heavy lifting to protect and manage disasters in our 
country is done outside the D.C. Beltway at the State and local level 
by the thousands of men and women who strap on their equipment every 
day to keep the cities and streets of America safe. Any investment we 
can make in State and local first responders and citizen preparedness 
is a sound one.
    I cannot thank the Congress enough for its leadership in continuing 
to appropriate homeland security dollars to Main Street, Alabama and 
all around the country. However, I would like to make two points about 
homeland security grants. First, please continue the annual 
appropriation of homeland security dollars to our States and 
territories. They have made an enormous and positive impact in Alabama, 
but there is still much, much more that needs to be done.
    Second, factor predictability into the grants and give Governors 
and State homeland security directors as much flexibility as possible 
in how these grant appropriations can be used. With all due respect, 
Governor Riley and I believe we have a better feel for what it will 
take to prepare for and manage disasters in Alabama than our Federal 
partners do, so please give us the flexibility to make the best 
decisions we can for our State along with the expectation that we will 
continue to receive funding for the important programs we have in 
place. As you can appreciate, it is tough to develop a plan or 
implement a program without being able to predict how, when, or if you 
will be able to fund it.
    The heart of our State homeland security program lies in setting 
the right conditions that will ensure first responders and 
decisionmakers have the right information and the right equipment 
available when they need it. Advances in situational awareness and 
asset management have experienced a sea change of improvements in 
Alabama during the past 5 years.
    The ability for public safety officials to reliably communicate 
using radio networks is essential to gaining and maintaining a clear 
situational picture. Alabama has enhanced interoperable radio 
communications by upgrading existing systems and utilizing a common 
bridging platform to connect disparate radio systems across the State. 
Investing in one comprehensive State-wide radio system with a common 
platform was not an affordable option for us. Instead, we leveraged 
technology by installing frequency bridges in each of Alabama's 67 
counties. This allows local agencies using different frequency bands to 
communicate.
    During a large-scale event where local interoperability can become 
overwhelmed, we have positioned eight regional communications vehicles 
throughout Alabama. In addition to bridging technology, these vehicles 
have satellite connectivity, Internet access, and streaming video 
cameras. If Alabama were to experience a total collapse of 
communications infrastructure we can restore communication fairly 
quickly for first responders with portable antenna towers that 
accompany our regional communications vehicle, and by utilizing organic 
Alabama National Guard disaster communication capabilities.
    This spring, Alabama conducted an experiment with the U.S. Army 
attaching antennas and video cameras to a high altitude aerostat. This 
technology, for example, would give Governor Riley and other State and 
Federal officials a panoramic picture of the Alabama coastline post 
hurricane, and allow us to direct assets and people where they are 
needed most.
    In Alabama we have also developed an effective situational 
awareness framework in which to manage public/private sector programs 
and operational data. The program is called Virtual Alabama. It is an 
affordable visualization tool using Google Earth technology that 
employs the power of a secure Internet-based application to make a 
positive, immediate difference to first responders. The advantage to 
our first responder population is that Virtual Alabama is free for 
their use and inexpensive to the State. Local and State officials can 
layer and tailor secure infrastructure information about their 
jurisdictions and feed it into a broader database that will give State 
and Federal decisionmakers valuable and timely information.
    With existing Geographic Information System (GIS) and 
orthophotographic data, we are able to transform massive amounts of 
useful information into a common operational picture. Examples of real-
time applications include emergency evacuation routing, vehicle and 
asset tracking, critical infrastructure mapping, plume modeling, real-
time sensor feeds, real-time streaming video, risk visualization, and 
post-event imagery placed alongside pre-event imagery.
    Virtual Alabama was deemed fully operational by Governor Riley on 
November 1, 2007. Embedded in the program is the best imagery available 
for each of Alabama's 67 counties. Experts tell us it is the most 
comprehensive database in the country. To date, we have over 3,000 
subscribers using Virtual Alabama, representing over 550 local, State, 
and Federal agencies and entities. I believe we have only scratched the 
surface on this emerging technology, and hope DHS will elect to do more 
to help us exploit this affordable technology around the country.
    Alabama has made remarkable strides toward improving information 
sharing and situational awareness within our criminal justice and 
public safety community. We've wisely invested our homeland security 
grant funding to upgrade outdated 1980's-era flat file computer 
architecture. Alabama's hard-wired terminal architecture has now been 
replaced with a real-time, 21st century Internet-based system available 
to all 850 State-wide law enforcement agencies, law enforcement 
officials, and other emergency responders throughout the State. This 
improved capability also includes a homeland security reporting system 
for providing information from the ``cop on the beat'' to our 
information fusion capability.
    We can take National Crime Information Center (NCIC) information 
and other criminal justice information and transmit it electronically 
to law enforcement officers with data terminals or any type of cell 
phone, Blackberry, or other personal digital assistant device. 
Additionally, this service is free of charge to local law enforcement 
and encourages their participation in sharing, gathering, and 
disseminating information.
    Finally, Alabama is investing both public and private resources to 
promote citizen and community preparedness. First responders make up 
only 1 percent of the population in Alabama. Our volunteers active in 
disasters and faith-based organizations make up another 1 percent of 
our population. For us to succeed in managing a catastrophe, it will 
take the collective efforts of first responders, volunteers, and the 
remaining 98 percent of our citizens. In that regard, Alabama has an 
aggressive public outreach and citizen preparedness campaign called 
Ready Alabama which delivers the message for Alabamians to ``Be 
informed, Be involved, Be Ready.'' More information is available at 
www.readyalabama.org.
    Ready Alabama is a portfolio of programs that encourages 
individuals to engage in citizen service by becoming volunteers in 
disaster preparedness and response, pursuing additional emergency 
training, creating family communications plans, building emergency 
supply kits, knowing evacuation measures, and other relevant 
information. Our goal is to get citizens to take personal 
responsibility before and after a disaster for their families and 
perhaps even their neighbors in a catastrophic event.
    In a disaster, first responders will be decisively engaged 
assisting our population that is unable to care for themselves. We tell 
our citizens that if the able-bodied do not take personal 
responsibility they risk becoming part of the response problem and not 
part of the response solution, thus tying up the efforts of first 
responders to restore order and assist those who truly cannot help 
themselves.
    In the weeks and months ahead, Alabama will continue to identify 
and develop new requirements and systems to better serve our citizens. 
However, we must be able to rely upon Federal assistance via the family 
of State homeland security grants to further our efforts.
    There is a real concern among the State homeland security directors 
around the country that there are people in the Federal Government who 
want to put the interests of the accountants ahead of the interests of 
our citizens. That would be a grave mistake. Collectively, we've made 
great strides since the attacks of 9/11 and Hurricane Katrina, but, as 
I stated out the outset, important work still remains.
    Thank you again for the privilege of appearing before you today. I 
look forward to addressing any questions you may have.
     Appendix 1: Federal Computer Week Article, dated June 2, 2008

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Carney. I thank all the witnesses for their testimony. 
I will remind each Member, Mr. Perlmutter, you have 5 minutes 
to question the panel after I do, of course.
    Mr. Parent, one common finding in the aftermath of Katrina 
was that DHS, not just FEMA, failed to effectively lead the 
Federal effort in the days immediately before and after the 
storm hit.
    Let's pretend for a moment that it is August 26, 2005, and 
Hurricane Katrina is 3 days away from the Gulf Coast. What are 
you doing to advise the Secretary and the senior leaders, 
including what concrete actions should be taken; and how does 
this differ from what actually was done?
    Mr. Parent. Yes, sir, Mr. Chairman.
    I think, as you are well aware, in Katrina the pre-landfall 
activity was relatively minimal from the Federal side. There 
was some equipment that was pre-positioned, there were some 
people that moved south. But, by and large, there was not an 
expensive operation to prepare for the onset of that hurricane.
    The difference today would be we lean forward with assets 
that could only be imagined in the Katrina environment. I would 
call your attention to Hurricane Dean last year, when the 
possibility existed that that very strong storm would swing 
slightly right and come up the Rio Grande valley, where there 
are large numbers of population that would have needed to have 
be evacuated, without the means.
    The entire Federal Government, not just FEMA, not just DHS, 
marshaled assets for the evacuation in that area, for the 
preparation of shelters, for the preparation of recovery from 
the storm if it would have come up the river. We spent a lot of 
money, but I think everyone thinks that that was well spent.
    Quite frankly, in the Katrina era it was, in many cases, 
felt that the literal definition of the Stafford Act prevented 
you from spending Stafford Act money for that type of storm-
imminent prevention activity. That is no longer the case today.
    A couple of other things that I would point to: The 
Department of Defense efforts, largely, until recently, those 
efforts were post-incident, post-Stafford Act declaration. 
Today, we have prescripted mission assignments for over 200 
activities or 200 response activities across the Federal 
Government, a large percentage of which are DOD, that can all 
be called upon, that require no planning, no ``what-ifs,'' no 
``could you do that,'' but they are ready to go. You push the 
button, you tell NORTHCOM, and the airplanes, the people, the 
trucks, they are all moving.
    Across the rest of the Federal Government, a number of 
those prescripted mission assignments apply to the other 
emergency support functions for the same result.
    Again, look at Dean. The people that were on scene down in 
Dean in the State of Texas, they all felt that they were ready 
for that storm if it had come up the Rio Grande, largely 
because of the assets and the capability that was ready to 
pounce on that storm if it came.
    Those would be the major differences today versus Katrina, 
sir: What happens before the storm actually gets to the area.
    Mr. Carney. Good. Thanks.
    Ms. Wormuth, in your testimony you say that the White House 
has, ``not played a strong enough role in developing policies 
or overseeing their implementation.''
    Could you expand on this? What would you like to see the 
White House doing over the next several years?
    Ms. Wormuth. I would be happy to expand on that.
    Just to give you a sense of, I think, the contrast between 
the NSC and HSC--first of all, I think--fundamentally, to me, 
it makes sense to have a single organization, because in my 
view, most of the issues in homeland security are, in fact, 
national security issues. It is really two sides of the same 
coin.
    I would argue that having two separate organizations 
dealing with these issues, many of which are, frankly, very 
interrelated, gets you sort of an intellectually divided 
approach when you need to have a holistic approach.
    But from an organizational perspective, the National 
Security Council staff--I think over 200 people, for example, 
whereas the Homeland Security Council staff is much smaller; it 
is about 45 people--the NSC, as an organization, obviously has 
along history. It is a very well respected institution. People 
in the Federal Government are very anxious to serve there. It 
is sort of the feather in your cap as a civil servant.
    The agency doesn't have, frankly, the same stature that the 
NSC has as a staff organization. So the quality of people, in 
many cases, you don't have the same level of experience. In 
many cases, you have people with political backgrounds as 
opposed to people with operational or policy backgrounds.
    So the HSC staff isn't resourced in the same way that the 
NSC staff is resourced. Generally, frankly, it doesn't get the 
same level of attention that the NSC does. I think that has had 
a direct impact on its ability to--when there is a disagreement 
in the interagency about something that needs to be done, it is 
harder for the HSC to sort of crack heads and make people 
cooperate as a direct result of this.
    So I think if you merge the two organizations, you would 
essentially elevate the treatment of those issues. You would 
have a more holistic approach, but you would also have a 
stronger entity in the White House that could ensure the kind 
of interagency cooperation that DHS very much needs.
    Mr. Carney. Thank you. My time is up for the time being.
    I now recognize the gentleman from Colorado, Mr. 
Perlmutter, for 5 minutes.
    Mr. Perlmutter. Thanks, Mr. Chairman. I just have a couple 
questions.
    Mr. Walker, I would like to start with you, because I 
generally agree with your approach, which is you start with the 
individual, the person, then you go to maybe the town or the 
city, and then the county and then the State and then the 
region and the Nation.
    But let's go to Katrina because that came in and obviously 
just swamped everybody. It needed quick response or quick 
reaction on the part of everybody.
    How do you deal with that today? Is there a protocol in 
place in Alabama? Ms. Wormuth was concerned that there really 
isn't a process or protocol available. How would you describe 
the situation today?
    Mr. Walker. Thank you for the question.
    If you read the National Response Plan, I mean, all 
incidents really are local. It reminds me of when you serve in 
the Department of Defense, the entire structure of the Federal 
Government from the national command authorities, Congress on 
down, is geared to support that one beautiful individual 
holding an M-16 rifle. Well, post-9/11, the person at the tip 
of the triangle is a firefighter, police officer, sheriff, et 
cetera. So everything starts locally and the system should be 
geared to support that individual.
    Well, what happens is, something happens locally even on a 
broad scale like Katrina, and if you know early on you are 
going to be overwhelmed, you start requesting assistance from 
the State. Then the Governor, who is the chief executive in our 
State, has the responsibility of turning around to the Federal 
Government and saying: We are in a dilemma and this is what we 
think we need; can you start moving now? We understand that it 
takes about 72 hours to move this big battleship that is called 
the Federal Government into Alabama.
    So we encourage our citizens to, No. 1, listen to emergency 
announcements. We have been pretty successful in Alabama. We 
have not had a coastal casualty in three major hurricanes and a 
tropical storm in the last 5 years. So if the citizens listen, 
that helps. If we have front-loaded the National Guard and 
commodities and put our procedures in place well in advance, 
knowing that the storm could possibly turn away from us, we are 
prepared. So when the storm passes, we can pop up, start 
restoring power and getting water and lifesaving commodities to 
citizens and start saving lives. But when we become 
overwhelmed, then the Governor turns around and says: This is 
what I can't handle and this is what I need,
    In the area of communications collapse and some of the 
other things we experienced under Katrina, we have addressed 
those with the Homeland Security money; we have increased our 
satellite communications capability. We bought our own portable 
antennas, got communication response vehicles. We even, in the 
State of Alabama, ran a test with the Army this year to get an 
aerostat that we can put up 2,500 feet and see the entire 
Alabama coastline and with a camera see who is stuck on a roof, 
see whose house is on fire, see where people are looting. We 
can bring it down during the day, set it back up at night, and 
with an infrared camera, see where people are trapped.
    So we are trying to take ownership and responsibility at 
the State level. But you are very right that some of this food-
fighting and turf battles that go on at the Federal level have 
an impact on us who are really trying to do the tough work down 
at the State and local level.
    Mr. Perlmutter. Thank you.
    Ms. Wormuth, your comments about--I have a couple of 
questions about your six or seven items. You say there is not a 
good process, not a good protocol. I am not sure. Can you 
expand on that a little bit?
    Also, the next administration comes in and it is your 
advice just to let things stay, at least for a while, before 
somebody starts playing around, reorganizing again.
    So, if you could.
    Ms. Wormuth. Mr. Perlmutter, I would be happy to comment.
    First, I think you are referring to my recommendations 
about the Stafford Act in a catastrophic context. What I am 
saying here is that I would agree that in 98 percent of the 
cases, the Stafford Act mechanisms work very well. All events 
are local, and the process that Mr. Walker outlined works very 
well.
    But in those instances, what I am concerned about is, what 
if you have, heaven forbid, a nuclear detonation or multiple 
dirty bombs or any of the sort of scenarios that are envisioned 
that are not natural in the fifteen National Planning 
Scenarios.
    In those instances, it is not clear to me that the sort of 
linear process of assessing the damage, informing the Governor, 
recognizing that local capabilities are going to be 
overwhelmed, and then having the Governor turn around and ask 
the Federal Government for assistance--what if the State 
doesn't have the ability to assess its own needs at that point? 
What if situational awareness has evaporated?
    I am not a technology person, but I am not sure what the 
EMP blast from a nuclear blast would do to the aerostat device. 
It is in those instances where I think we may need to look at, 
can we streamline the ability of the Federal Government to 
bring its resources to bear?
    I am very aware of federalism, and I do not want the 
Federal Government to come in and take over. I am not 
advocating that. But I think we are in a new reality now, and 
we need to maybe look at, do constructs that we developed two 
decades ago make sense in the post-9/11 environment?
    On the reorg question, I would just say: yes. If I were 
creating DHS today, would I build it the way it is built now? 
No, I wouldn't. But I think at this point it is a reasonable 
organizational structure, and I would recommend the new 
administration come in, figure out what they have got, let the 
things that are working keep working and keep maturing, and 
then maybe make an assessment a year in as to whether changes 
need to be made.
    But I think sort of the knee-jerk reaction to just ``throw 
the baby out with the bath water'' is going to be very 
counterproductive.
    Mr. Perlmutter. Thank you.
    Mr. Carney. The Chair now recognizes Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Walker, you are not implying or directly saying that 
the Federal Government did not have any responsibilities prior 
to Katrina hitting in order to line up the resources that would 
be necessary if, God forbid, the worst happened. And it 
happened.
    You are not saying that, are you?
    Mr. Walker. No, sir, I am not. Once a storm, if we are 
talking about a storm, hits that 72-hour window, you can bet, 
based on the forecasting and what we know, that the Governor is 
going to turn around and anticipate what his requirements are.
    I think one of the challenges--and one of the reasons why 
Mr. Long is here--is that there has even been a change this 
year that has been a bit frustrating for us about prestaging 
commodities. We had water, ice and MREs already positioned in 
the State of Alabama prior to Hurricane Katrina, and we still 
had a tough time getting it delivered. In fact, we had to go 
and ask a local military base commander to get a helicopter 
with some of the things out of the mess hall and send them over 
to feed our citizens.
    This year, just in late April, early May, we happened to 
find out by happenstance that FEMA has changed its prestaging 
commodities. They don't want to do it anymore, because they 
want to save money. So we don't have commodities in Alabama 
anymore.
    What I find absolutely fascinating--and Mr. Chairman, I 
know that you grew up in rural Iowa. A little town called Mason 
City, about 30,000 people, is under water right now. The Iowa 
Emergency Management Director asked for 10 loads of water 3 
days ago from FEMA. He still hasn't gotten it.
    But if you are in Alabama, how lucky do we feel when my 
Governor turns around and says: I want commodities this 
hurricane season, and it is not already in our State?
    Mr. Pascrell. What we are basically saying, and correct me 
if I am misinterpreting, the Federal Government does have a 
role in the planning beforehand, rather than simply being 
available to go in and assist local governments.
    We know the fireman, the police officer, the EMT is going 
to be the first to respond to an event, whether it is manmade 
or caused by nature. But the point is that the Federal 
Government has some role to help coordinate these things, not 
to circumvent, not to override, not to be in charge 
necessarily.
    But the Federal Government has the responsibility. Then the 
question is: Does it have the resources?
    I think you point out something very interesting. Even in 
2008 the Federal Government has not put the resources in place 
to deal with what one could consider, relatively speaking, our 
minor situations. This is unacceptable. This is the point that 
we have been trying to make over and over again.
    I have this question for Mr. Parent: The Department of 
Homeland Security was created in the wake of 9/11, Mr. Parent, 
as you well know, not only to prevent the next major terrorist 
attack, but to be able to have a unified and effective response 
to a national catastrophes, which was not the case.
    Congress consolidated these agencies in, I think, good 
fashion and not-so-good fashion, so we could have this unified 
chain of understanding and this unified chain of command--a 
chain of command. But the response to Hurricane Katrina 
demonstrated that the coordination has not occurred--did not 
occur.
    So it is my belief that the administration, this 
administration, since we are dealing with this at this time, 
must take steps to simplify and consolidate the chain of 
command when it comes to responding to those national 
catastrophes. There must not be any questions about who is in 
charge after a major incident has occurred, so we should decide 
that beforehand.
    Are you with me so far?
    Mr. Parent. I am.
    Mr. Pascrell. So let me ask you then, can you provide an 
example where an improved interagency structure was needed 
during Katrina?
    Mr. Parent. Well, I think I understand your question, 
Congressman. I think you are asking me, what do I think the 
structure should have been during Katrina?
    Mr. Pascrell. That is another way of asking what I have 
asked.
    Mr. Parent. Well, in a nutshell, I think the structure 
existed, but it wasn't employed. It wasn't there when it needed 
to be there. The work that needed to be done to mitigate the 
disaster of Hurricane Katrina needed to be done in the 72-hour, 
96-hour period before the storm hit.
    Mr. Pascrell. Did we know who was in charge during the 
early hours of Katrina and afterwards? Did we know who was in 
charge? Is that defined in the reports that we received 
concerning what happened?
    Mr. Parent. No. I think most of the Katrina reports say 
that it was a cloudy picture. That there was an issue with 
exactly who was there. Once Admiral Allen was designated as the 
PFO and got on-scene, I think that issue was cleared up.
    Mr. Pascrell. You will agree with me, though, that the 
mechanics should have been figured out beforehand?
    Mr. Parent. I certainly would agree with you, sir, along 
with everyone else.
    Mr. Pascrell. The Federal Government should have been 
working with the State government, et cetera, to decide that, 
not wait until after the situation, then we say we have got a 
command post in place 2 days after it happens.
    That is not acceptable, is it?
    Mr. Parent. I would agree.
    Mr. Pascrell. That would not be the case, God forbid, if 
something happened tomorrow, would it?
    Mr. Parent. No, sir.
    Mr. Pascrell. Explain what would happen.
    Mr. Parent. What would happen tomorrow is, the designations 
are already made for hurricanes, as I said in my statement. We 
have PFOs, FCOs, senior Federal law enforcement officers, 
Defense coordinating officers all designated into teams for the 
five States that are in the hurricane-prevalent area.
    Mr. Pascrell. Would you say that is the main difference, 
that we do have a well-defined chain of command now, where we 
did not have it at that point?
    Mr. Parent. I would say in the form of those teams, 
absolutely. The team that came together that finally resolved 
Katrina had not worked together previously and was not 
predesignated as the teams are today.
    Today, the teams conduct exercises, they go to training. 
They are well-known by the people on-scene, the State and local 
people on-scene. It is a very different picture, which if you 
combine that with the fact that we are willing to move assets 
into the area and actually move things that used to be post-
incident, post-declaration, you get a much different response 
readiness picture than the Katrina picture.
    Mr. Pascrell. That sounds good and everything, but I am 
listening to Mr. Walker tell us of a very recent example, and 
that disturbs me very, very much.
    If I can, Mr. Chairman, I would like Ms. Wormuth to respond 
to what Mr. Parent said.
    Ms. Wormuth. I would be happy to do that, Congressman.
    This is how I would characterize the situation today. I do 
think it has improved since Hurricane Katrina, the chain of 
command or sort of the leadership picture. But, in my view, it 
is not clear enough, and there are two specific areas where it 
is not clear. It may be clear in the minds of individuals, but 
again, individuals can change, particularly during a 
transition.
    The relationship between the Secretary of Homeland Security 
and the FEMA Director is one area that, frankly, is not 
particularly clear. The Post-Katrina Emergency Management 
Reform Act designates the FEMA Administrator as having the 
ability to speak directly to the President, but the Secretary 
has the role as the overall incident manager. How those two 
individuals interrelate is not clear. In my view, the FEMA 
Administrator works for the Secretary of Homeland Security.
    Mr. Pascrell. That is pretty clear----
    Ms. Wormuth. That is how you should solve that. On the 
ground, I think predesignating the PFOs was a useful step 
forward. To me, it is still fundamentally difficult to see how 
you can have unity of effort on the ground when you have a PFO 
that reports to the Secretary and a FCO that reports to the 
FEMA Administrator and the PFO does not have authority over the 
FCO.
    Mr. Pascrell. What is the problem then in terms of what 
should be clear? Even though there are not words written on a 
piece of paper as to who should call Jake, et cetera, what is 
the problem then between the parent agency and FEMA? Is it 
turf? Is it ego? Is it the very nature of how they exist under 
present law? What is it?
    Ms. Wormuth. Sir, as an outside observer, my sense is that 
the PFO-FCO, the fact that we still have those two positions, I 
think, has it roots in, frankly, the internal turf battles 
between FEMA and the rest of the Department.
    Mr. Pascrell. What is the best way--and I will really put 
you on the spot: What is the best way to respond to those turf 
battles, which we heard back in 2001 with Catastrophe 1? And we 
heard Catastrophe 2, Katrina, same situation.
    I don't feel comfortable about leaving the hearing and 
thinking that has all been resolved. I don't believe that.
    Ms. Wormuth. I don't feel comfortable with the situation as 
it exists today either. In my view you can do two things. I 
mean, one person on the ground working for DHS and reporting to 
the Secretary should be in charge. That person can't do 
everything. They can't talk to the media and talk to the 
Governor and report back to the Secretary and also be 
responsible for coordinating the operational assets. But they 
can have deputies who work for them who are doing that.
    In my view, you can call it the PFO, you can call it the 
FCO. We recommend you call it the ``lead Federal coordinator'' 
just to get away from the whole PFO-FCO battle. But you should 
have one person in charge who reports back to Washington and 
who has a deputy or multiple, as the case may be. But you can't 
have two individuals who don't work for each other, who are 
both picking up the phone and calling back to Washington.
    Mr. Pascrell. Shouldn't we resolve that before we have the 
next administration so that there can be a continuity which we 
all can have hope in?
    Ms. Wormuth. I would certainly welcome that, Congressman.
    Mr. Pascrell. Mr. Chairman, I think that is something we 
need to address immediately. I think this is serious business, 
and it could mean saving lives, now that I think of it.
    Thank you.
    Mr. Carney. Thank you, Mr. Pascrell. We will start with 
another round of questions, I guess, here.
    Mr. Jenkins, you spent a great deal of time observing DHS 
and FEMA exercises. Do you see any evidence of increased or 
decreased planning and interagency coordination over your 
observations?
    Mr. Jenkins. Well, there certainly are some.
    I agree with Ms. Wormuth about the PFO-FCO. We have 
certainly been told in those exercises that personalities are 
very important in how those two positions work; if they don't 
get along, it is not going to work, and there is some greater 
coordination.
    I think there are still issues with regard to chain of 
command. There are some issues with regard to communications 
and roles and responsibilities that have come up in the 
exercises in terms of who is really supposed to do what. There 
is certainly progress being made.
    Our basic concern in terms of the work that we have done so 
far is how effectively and how honestly these exercises are 
being evaluated, and identifying the issues that have come up 
in them and taking corrective action and making sure that those 
corrective actions are implemented.
    Mr. Carney. If I might, are you suggesting that we don't 
necessarily have honest evaluations?
    Mr. Jenkins. I think in some cases evaluations that we have 
read seem to be cut and pasted from other evaluations. The 
paragraphs are identical between the two exercises in terms of 
the evaluation. They are identical paragraphs down to the 
punctuation.
    Mr. Carney. Really? Mr. Parent, could you shed any light on 
that?
    Mr. Parent. Well, I certainly have not seen that. But I am 
going to say that Mr. Jenkins is wrong.
    I will tell you that I have been a PFO. I was the second 
PFO ever designated. I served as a PFO in TOPOFF 2, and I have 
participated in every major exercise since then up until the 
most recent, NLE-208. There has been enormous progress, but it 
is a large task.
    There are many, many people--and I know you understand 
this--from a military background. The exercises we do that 
involve State and local, Federal and DOD, are much larger than 
any of the DOD-type exercises. The diversity of the people that 
participate is, again, many, many factors larger.
    So there are--there are first responders in an exercise 
that are following their objectives. There is a PFO team that 
is following its objectives. There may be 50 operation centers 
that are following their objectives. So you do have to be a 
little bit careful when you evaluate an exercise, and you pick 
one spot over here and say, I really like--you know, that 
doesn't look good or whatever. Because the vast majority of 
those exercises, there are thousands and thousands of people 
who are benefiting from having participated in and conducted 
the exercise.
    But are there some of the same problems that are not 
solved? Certainly. There are many, many issues that in the 
first 5 years of DHS we have not solved. That doesn't mean that 
they are being dropped or ignored; but the reality is, there 
are things that will probably still be problems 5 years from 
now. But many, many improvements have been made, and it is a 
very different process that exercises today versus 2003.
    Mr. Carney. Well, certainly, if we see evaluations that are 
cut and pasted from previous ones, that doesn't look like we 
are making progress to me, actually.
    You know, Mr. Walker, those of us who have been out on the 
pointy end of the spear know we have TTPs, everything is in 
place but sometimes we do it our own way despite that fact. 
Sometimes you have to react to things on the ground that aren't 
accounted for.
    How do we account for that?
    Mr. Walker. We have a pretty aggressive training exercise 
program in our State too, thanks again to the family of 
Homeland Security grant dollars that you send down to us.
    You know, with the disasters that we have--you know, 
anytime that you have an exercise or anytime that you have a 
real-time event, of course you learn, and there are lessons 
learned and you adjust as necessary. We continue to do that as 
well, and we adjust.
    We have learned something from every disaster. As an 
example, getting ready for this hurricane season, the Governor 
every year, we reverse the Interstate 65 that runs up through 
the artery of Alabama, and we practice this stuff, so you know 
it pays off.
    As it relates to chain of command, we talk about who is in 
charge. In my State, it is really pretty easy; it is a guy by 
the name of Governor Bob Riley. His job is to fight the close 
fight with our counties and our citizens and to turn around to 
one Federal official and say: This is what I need; now you, Mr. 
Federal Official, go to figure out how to get that for me.
    Mr. Carney. Right. Right. Mr. Jenkins, coming back to you 
again real quick, you noted in your testimony that the Federal 
Partner Guides to the NRF are still under development.
    Could you explain what these are and tell us why it is so 
significant that they are not done?
    Mr. Jenkins. Well, essentially, they are how-to guides, 
that is, what your role is and what specifically is expected of 
you. They are described as how-to guides by FEMA, and they are 
supposed to really put meat on the NRF--more specificity for 
Federal partners, State partners, local partners--and so they 
are very important in terms of developing operational plans and 
being much more specific about what your roles and 
responsibilities are.
    FEMA had initially hoped to have those in place prior to 
the hurricane season, but they are not in place at this point.
    Mr. Carney. Mr. Parent, do you know when this exercise is 
going to be completed? Any idea?
    Mr. Parent. They are in progress right now. I would say 
that it is very, very important that those be done correctly, 
because they do get to the meat of exactly what 
responsibility--it is really a responsibility issue in many 
aspects of those documents.
    While we certainly do not have all of them out right now, 
there are draft copies of many of them that people are 
utilizing. We have had a hurricane CONOP, concept of 
operations, since right after Katrina. So the fact that we 
don't have that particular document for hurricane season, I 
don't see as debilitating in our process.
    It will be a much better situation when we have those 
documents out for putting capabilities together in the plans, 
and everyone eagerly awaits them; but I don't see it as 
debilitating today that we don't have one for hurricanes.
    Mr. Carney. Okay. Well, I would suggest all deliberate 
speed on those. And do them correctly, obviously, but we need 
to get them out there.
    The Chair now recognizes Ranking Member from Alabama, Mr. 
Rogers, for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman. I am sorry I had to 
step out. I had a meeting that I had prescheduled.
    Mr. Walker, I wanted to ask you about--and first, to 
congratulate you on your award, and ask you to tell me a little 
bit--and you may have visited this while I was out of the 
chamber--about Virtual Alabama and its applications in the 
event of a major catastrophe.
    Mr. Walker. Yes, sir. It is truly one of those tools where 
you try to put the right information and situation awareness in 
the hands of the people who are doing the job.
    What we have done in Alabama is, we have captured the best 
imagery, the geographic information imagery that we have of the 
entire State of Alabama, all 67 counties. What we have 
discovered--very inexpensively, I might add--was that we could 
take our imagery that the State owns and we can layer and 
tailor whatever information we find useful, and at the click of 
a button, it becomes available to us.
    So, in other words, we bought a license from Google, Google 
Earth platform. So if you were to go to Google right now and 
click on your house and Saks, you could look at it from Google 
Earth, but you can't do anything with it.
    With our platform in Alabama, I can take our imagery, look 
at your house, I can populate the waterlines, gas lines, 
stoplights, any sex offender in your neighborhood, your 
floodplain data, any other useful information that a first 
responder needs. He is populating this data. We can even have 
your local volunteer fire department 3-D model out your house 
to include where your rooms and furniture are, your exits are. 
So for a firefighter that is doing that in all of their 
buildings in Montgomery or around the State. Before you put a 
firefighter in harm's way, he knows where the people are, he 
knows where the exits are, where the hazardous materials are; 
and so it is going to save his life or somebody's life when 
seconds matter and he enters that building.
    On a broader scale, we also pay a lot of attention to 
school safety. We can access the cameras in the schools in 
Alabama and actually look inside the schools to see if there is 
a shooting or some sort of an incident. Our educators are 
populating student concentration. So if you take the Virginia 
Tech example, for example, whether it was a shooting, this guy 
locks himself in a building, we can send first responders--
first of all, they can look into the building.
    Second of all, we populated which students are in which 
classrooms at this time of day on this day; and when seconds 
matter, they are not kicking the doors down to empty 
classrooms. They are going to where the kids are.
    So we can do that. We have accessed every Department of 
Transportation camera in the State of Alabama, so we can see 
what our traffic looks like if we were reverse laning to 
evacuate in a disaster.
    We can also use that aerostat that I spoke about earlier. 
We can access all of this data on our imagery to give our first 
responders an immediate field for what is happening at the tip 
of the spear to help them save lives and manage a disaster.
    Now, that situational awareness is at the local level, and 
it has nothing to do with somebody in a roomful of computers in 
Washington, DC.
    Mr. Rogers. Have y'all been able take that technology--and 
I remember after Katrina we had a delegation go down and visit 
not only New Orleans but--and the Governor and I went over 
there, went over to Mississippi, met with the Governor; and 
then came to Alabama, and met with Governor Riley.
    One of the Governor's requests there was that we go ahead 
and pre-negotiate contracts for debris removal and such 
activities as that which we know we are going to have in case 
of another hurricane, so that when it hits, we have already got 
contractors in place, but more importantly, routes to deliver 
to different landfills.
    Mr. Walker. Yes, sir. With your permission, I would let 
Brock, who is the State Emergency Management Agency Director, 
address that for you.
    Mr. Long. An important element, most of those pre-event 
contracts are handled by local governments. But what we can do, 
for example----
    Mr. Rogers. Yes, but if you will remember, the last time, 
one of the criticisms FEMA had was they would only reimburse 
local governments if they had used the Federal contractors. 
These local mayors were saying they could have contracts in 
place much cheaper if they could get reimbursed for exacting a 
contract.
    Mr. Long. Right. That is correct.
    I guess I would answer that question from this standpoint: 
We are judged in the recovery efforts, 75 percent of all we 
do--regardless of the preparedness stuff, we are judged 75 
percent of the time by our recovery efforts. Debris is a huge 
issue. We have multiple issues where these are the largest 
mistakes made, million-dollar mistakes that are made. Obviously 
we need to do all that we can to reduce the mistakes that are 
there, you know, through supplementing.
    We need to understand clear guidance from FEMA and Homeland 
Security as to what the rules are, how the Stafford Act is 
being interpreted and that there is consistency to that. Then, 
second, that needs to go down and make sure that all the States 
are very clear, we are all seeing eye to eye, so that we can 
supplement that at the local level.
    Mr. Rogers. When it comes to Alabama, are you clear now 
about where FEMA is? Do y'all have preset contracts in place 
now for things like debris removal?
    Mr. Long. Not at the State level, we do not. But we do know 
Mobile and Baldwin Counties, who would have the largest 
potential for the largest amount of debris, do have those 
contracts in place which we have helped advise them on 
regularly. We just held a meeting with FEMA Region IV to make 
sure that those plans were agreeable to FEMA.
    Mr. Rogers. I wanted to ask Jim about the cameras.
    You had a good example with what happened in West 
Virginia--or at Virginia Tech; I am sorry.
    You know, we had a problem in Auburn recently with a brutal 
murder there.
    Mr. Walker. Yes, sir.
    Mr. Rogers. One of the things that I would like to have 
seen in existence at that time was CC cameras, closed circuit 
cameras, around the campus. I think we need them in a lot of 
places. We have, in a Homeland Security visit to London, talked 
with our counterparts and the folks at Scotland Yard. In London 
everything in public is on CCTV, which has really helped them.
    Do we have any pilot programs on any campuses in Alabama--
not just high schools, but colleges where we have a CCTV you 
can plug into with that system?
    Mr. Walker. We do, sir. We just awarded another grant to 
Auburn University in your district with the Homeland Security 
grant money that you all were kind enough to send us in 
Alabama.
    But what we discovered, sir, is with this Virtual Alabama 
technology, we do have a schools initiative. I hope to use some 
of our fiscal year 2008 grant money to do this. That is, a lot 
of schools in our State--I am talking about elementary up 
through--have camera systems in the school. A lot of them are 
the old 1960's, 1970's architecture, closed circuit where 
somebody has to be looking at a monitor.
    But technology today, for about $500 you can buy a switch 
to get those cameras onto the Internet. If I can get it onto 
the Internet, I can get it onto Virtual Alabama behind a 
password, and I can look at that stuff all the time.
    Now the potential for this is enormous, because that is 
just a government-to-government activity. When you consider 
that the private sector is really 85 to 90 percent of our 
Nation's infrastructure and you can go to any plant in Alabama, 
they will have cameras, and they will have floor plans.
    In order to really engage the private sector, which is a 
very, very difficult nut for Homeland Security directors at the 
State and the Federal level, if you can show success between a 
government-to-government entity like our schools and accessing 
their cameras, you can make a case to a businessman to say: 
Hey, look, why don't you let us upload your cameras and let you 
put it behind a fire wall? Because if there is a shooting at 
your plant, if there is a fire at your plant, if there is a 
disaster or a bomb that goes off at your plant, it is the local 
sheriff and emergency manager and firefighters that are going 
to save your fanny. So let's populate this data ahead of time 
and not exchange business cards at a disaster.
    So that is another way that the technology is helping us.
    Mr. Rogers. Thank you. I would like to advise my 
colleagues, ``fanny'' is a technical term in Alabama.
    Mr. Carney. Mr. Perlmutter, do you have any more questions?
    Mr. Perlmutter. One quick one. This is to Mr. Jenkins and 
Mr. Parent.
    Ms. Wormuth had the suggestion of merging or modifying or 
doing something between the Homeland Security Council and the 
National Security Council. Do either of you gentlemen have any 
thoughts about that?
    Mr. Jenkins. Well, we at GAO really haven't looked at that. 
I have read her report, and I do agree that there needs to be 
consistency, you know, and coordination. To the extent to which 
there isn't that, it is a detriment.
    But beyond that, we haven't really looked at that issue in 
detail the way Ms. Wormuth has.
    Mr. Parent. I am not sure I could say that I have looked at 
it either.
    I have experienced it, though; and within DHS headquarters, 
Operations is the entity that maintains connectivity with the 
NSC and with the HCS. If it was one body, it would 
theoretically be a smaller number of meetings and a fewer 
number of people for us to do our business.
    But at this point we engage with both and operate in both 
of those arenas. So one might be better than two.
    Mr. Perlmutter. Thank you.
    Mr. Carney. Mr. Pascrell.
    Mr. Pascrell. Mr. Chairman, thank you for holding the 
hearing today, you and the Ranking Member. I want to go back to 
the evaluations with Mr. Jenkins.
    You said some very interesting things, and I am sure you 
can stand by what you say, since I have a great--I have great 
faith in the GAO regardless of what the subject matter is.
    Who does the evaluations that you were referred to before? 
Are they professional or are they political appointees?
    Mr. Jenkins. I think that what we were really looking at 
and what I was referring to is evaluations that seem to be 
quite general and nonspecific.
    Mr. Pascrell. Right.
    Mr. Jenkins. In these specific instances, they were done by 
contractors.
    Mr. Pascrell. Which means?
    Mr. Jenkins. They were people hired to run and--they were 
principally responsible for designing and conducting, you know, 
managing the exercise, and then preparing the after-action 
report on the exercise.
    Mr. Pascrell. How are those contractors that do the 
evaluation put in place? Is this a proposal? Bid process? What 
are the mechanics there?
    Mr. Jenkins. It is a bid process.
    Mr. Pascrell. It is a bid process?
    Mr. Jenkins. Yes.
    Mr. Pascrell. So you have evaluators who seem to lack 
specificity, and the examples that you highlighted are kind of 
cookie-cutting most of the criticisms of whatever they are 
evaluating.
    Mr. Jenkins. Well, I wouldn't say that it is a majority. I 
mean, these are some specific examples that we have found where 
we found that they were very general, they were not very 
specific; and they are remarkably similar. But as Mr. Parent 
pointed out, there are thousands of these exercises.
    We are trying to look at across the board. I want to temper 
that by saying that there are also some very specific, clear, 
hard-hitting after-action reports that have been done on 
exercises, and in some cases, by the same contractor.
    Mr. Pascrell. Well, we are not exactly evaluating how the 
deck chairs are lined up on the Titanic. What we are doing is 
evaluating whether or not the specific agencies or divisions 
within those agencies are doing what they are supposed to do. 
Is that correct?
    Mr. Jenkins. Yes. In this particular instance, what we are 
trying to look at--and our work is still under way--is looking 
at how the exercises are designed, what they are designed to 
test, how they are evaluated, what kinds of problems--what went 
well, what did not go well, how are they sharing that across 
emergency response agencies, and how are they taking corrective 
actions to deal with any problems that are identified.
    Mr. Pascrell. Could you give us, for public consumption, an 
area which reflected these general evaluations without going 
into what should have been very specific criticism?
    Mr. Jenkins. Not at this point.
    Mr. Pascrell. Could you make it available to this 
committee?
    Mr. Jenkins. I will have to check.
    Let me just say----
    Mr. Pascrell. Excuse me. Why would there be hesitation to 
provide the committee with information which I think is 
pertinent? We are talking about evaluations of work here.
    Mr. Jenkins. Because we don't share the information or the 
work papers during the course of the work, only after the work 
is completed.
    Mr. Pascrell. Well, is the work completed in the ones that 
you were talking about?
    Mr. Jenkins. No. It is still part of the overall assignment 
that we are working on. We will want to talk to the contractors 
as well. So we haven't had a chance to talk to them.
    Mr. Pascrell. When you do that, you will be able to provide 
this committee with those reports?
    Mr. Jenkins. Yes.
    Mr. Pascrell. Since you know the evaluations of Homeland 
Security have not been very good?
    Mr. Jenkins. Right.
    Mr. Pascrell. I am not making this up. So I would like to 
know what GAO's--your evaluation of the evaluators.
    Mr. Jenkins. That is what we are looking at. I mean--and 
looking very broadly across national exercises, State exercises 
and local exercises as well as regional exercises.
    Mr. Pascrell. Okay.
    Thanks, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Pascrell.
    Mr. Parent, I have got just one more question, and it is 
about the Annexes. I am glad you guys are working on HSPD-8 and 
the Annex and all.
    Can you tell me how far along you are in the fifteen 
different planning scenarios?
    Mr. Parent. Yes. We are responsible for the strategic 
guidance statement and the strategic plan part of those fifteen 
scenarios. We have the vast majority of them in draft form.
    What we are awaiting now is the approval of the integrated 
planning system which lays out the vetting process for the 
entire planning system, all the way down to the tactical level. 
So--and the approval of the IPS is very, very close. We are at 
about, I would say, the 95 percent point with that system.
    Once that is done, the strategic guidance statements, the 
strategic plans and then a concept plan will flow very rapidly 
after that.
    Mr. Carney. Okay. So you are about on the 5-yard line then?
    Mr. Parent. We feel that way. Yes, sir, we do.
    Mr. Carney. Put down is at----
    Mr. Parent. Second.
    Mr. Carney. Okay.
    How is the interagency coordination going with those?
    Mr. Parent. I would like to say that we took--when we set 
up the IMPT, we took the lessons from the IIMG and the other 
interagency groups that had functioned in the early days of the 
Department. The IMPT is a happy group. It is a strong group. 
Attendance is good; we have no poor attendance records by any 
of the major players in the interagency community. We have a 
lot of engaged people.
    Typically, those draft strategic plans I mentioned, not 
uncommon for us to work our way through the adjudication 
process for 800 or 900 comments on those plans. But as you 
know, in planning, that is the real meat of it, if people are 
engaging and saying, I don't understand that, or I don't know 
what you are trying to--what you are trying to say there, that 
is the real value of doing planning.
    It is much greater than the actual document itself, in many 
cases, as General Eisenhower said.
    Mr. Carney. Absolutely. I thank you.
    I have no further questions. Mr. Rogers.
    Mr. Rogers. No.
    Mr. Carney. Okay.
    Well, I thank the witnesses for their testimony. It has 
been truly valuable. Great insight. You may have some questions 
from our subcommittee in writing. I urge you, encourage you and 
advise you to get them back to us, the answers back to us in a 
timely fashion.
    Thank you once again.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions From Chairman Christopher P. Carney for Wayne Parent, Deputy 
  Director, Office of Operations Coordination, Department of Homeland 
                                Security
    Question 1. Does the IMPT have enough resources? Would it be more 
effective with more staff, more permanent detailees, or more authority? 
What does the IMPT need to make sure its mission is completed as 
expeditiously as possible?
    Answer. Response was not provided at the time of publication.
    Question 2. The Post-Katrina Emergency Reform Act revamped and 
strengthened the FEMA regional offices. Does the IMPT coordinate 
directly with the FEMA regional offices, or is there a single 
coordination point for all of FEMA? Is the current coordination 
structure sufficient, or could it be improved?
    Answer. Response was not provided at the time of publication.
    Question 3. Do other agencies recognize that DHS is the leader of 
the Federal Government's response to a major catastrophe? Do you think 
they recognized that during Katrina?
    Answer. Response was not provided at the time of publication.
    Question 4. In terms of planning organizations, DHS has its IMPT 
and FEMA has its Operational Planning Unit, or OPU. How well are these 
two entities working together? Are they complementing each other, or 
are they redundant or even working at cross-purposes?
    Answer. Response was not provided at the time of publication.
  Questions From Ranking Member Mike Rogers for Wayne Parent, Deputy 
  Director, Office of Operations Coordination, Department of Homeland 
                                Security
    Question 1a. How does the Department of Homeland Security (DHS) 
ensure that all Federal agencies (and their personnel) that may respond 
to a catastrophic event understand their respective roles and 
responsibilities?
    How does DHS ensure that each organization is ready and able to 
fulfill those roles and responsibilities?
    Answer. Response was not provided at the time of publication.
    Question 1b. Due to the lack of traditional ``command and control'' 
that is typically required in incident response, what challenges has 
DHS faced in coordinating with other Federal agencies?
    Answer. Response was not provided at the time of publication.
    Question 2a. The Stafford Act specifically addresses Federal 
response and recovery functions. What authorities exist, if any, to 
integrate interagency coordination for the prevention and protection 
mission areas?
    How are the prevention and protection mission areas integrated with 
the components' mission sets?
    Answer. Response was not provided at the time of publication.
    Question 2b. How does DHS manage efforts to deal with a sustained 
threat that does not immediately require response or recovery efforts?
    Answer. Response was not provided at the time of publication.
    Question 2c. Please explain when the Emergency Support Functions 
(ESFs) are utilized.
    Answer. Response was not provided at the time of publication.
    Question 2d. Are there situations outside of Stafford Act events 
when the ESFs might need to be activated?
    Answer. Response was not provided at the time of publication.
    Question 2e. Does DHS or another Federal agency have the authority 
to activate ESFs outside of Stafford Act events?
    Answer. Response was not provided at the time of publication.
    Question 2f. Are there specific limitations within the Stafford Act 
and/or ESFs that impede progress in the planning arena?
    Answer. Response was not provided at the time of publication.
    Question 3. One of the recommendations made by the Center for 
Strategic and International Studies (CSIS) is that the role of the 
Department of Defense (DoD) should be clearly stated--that DoD does not 
have a lead role in responding to catastrophic incidents, but will be 
expected to play a substantial support role. The National Response 
Framework (NRF) does not include a DoD Emergency Support Annex, 
however, that would explicitly define the roles, expectations, and 
responsibilities of DoD in a catastrophic event.
    To what extent are DoD's roles defined and its performance measured 
in the event of a catastrophic disaster?
    Answer. Response was not provided at the time of publication.
    Question 4. The glossary to the NRF defines incident management as 
``how incidents are managed across all homeland security activities, 
including prevention, protection, and response and recovery,'' while 
emergency management is defined as ``a subset of incident management.'' 
Emergency management is statutorily defined in the Post-Katrina 
Emergency Management Reform Act (Pub. L. 109-295) as the coordination 
and integration of all activities necessary to build, sustain, and 
improve the capability to prepare for, protect against, respond to, 
recover from, or mitigate against threatened or actual natural 
disasters, acts of terrorism, or other manmade disasters. Some 
emergency response stakeholders have expressed concerns that the NRF 
inverts the generally accepted understanding of these terms.
    Given that the Post-Katrina Emergency Management Reform Act broadly 
defines emergency management as encompassing those activities the NRF 
identifies as incident management, what actions has DHS taken to 
clarify the definition of incident management and how it differs from 
emergency management?
    Answer. Response was not provided at the time of publication.
    Question 5. The DHS Secretary is a member of the Homeland Security 
Council and is the principal Federal official for domestic incident 
management. The FEMA Administrator is the principal advisor to the 
President, the Secretary, and the Homeland Security Council on all 
matters regarding emergency management, and reports to the DHS 
Secretary. The Post-Katrina Emergency Management Reform Act enables the 
President to designate the Administrator as a member of the Cabinet in 
the event of natural disasters, acts of terrorism, and other man-made 
disasters. According to the NRF, the Principal Federal Official (PFO) 
represents the DHS Secretary, and the Federal Coordinating Officer 
(FCO) represents the FEMA Administrator.
    In the event that the FEMA Administrator is elevated to Cabinet 
status by the President following a disaster, how does the chain-of-
command change and what are the changes in the relative reporting 
relationships of the Secretary, Administrator, DHS Office of Operations 
Coordination, the PFO, and the FCO?
    Answer. Response was not provided at the time of publication.
    Question 6a. During the response to Hurricane Katrina, there was 
confusion regarding the roles and responsibilities of the PFO and the 
FCO, which had an adverse effect on the response effort. Since that 
time, the NRF has clarified the respective roles and responsibilities 
of the two positions; however, there is still some concern about the 
roles of these two positions in strategically and operationally 
managing the response to a catastrophic disaster.
    What activities are encompassed in the PFO's incident management 
roles that are distinct from the FCO's role in executing Stafford Act 
authorities for emergency management?
    Answer. Response was not provided at the time of publication.
    Question 6b. What, if any, policies and procedures exist that 
explicitly delineate the role of the PFO vis-a-vis the FCO, given 
expressed concerns about their delineation in the NRF?
    Answer. Response was not provided at the time of publication.
    Question 6c. What is the status of the PFO Concept of Operations 
and when will it be publicly available?
    Answer. Response was not provided at the time of publication.
    Question 6d. FCOs are subject to credentialing requirements and a 
professional development program. Are PFOs subject to equivalent 
credentialing and professional development?
    Answer. Response was not provided at the time of publication.
    Question 7a. DHS is responsible for leading the operational 
planning needed for an effective national response. Two essential 
supplements to the NRF--Federal Partner Response Guides and DHS's 
Integrated Planning System--are still under development.
    What is the time frame for completion of the Partner Guides?
    Answer. Response was not provided at the time of publication.
    Question 7b. What challenges has DHS faced in developing the 
Guides?
    Answer. Response was not provided at the time of publication.
    Question 7c. What is the status of the Department's effort to 
develop the Federal response capability inventory required by HSPD-8?
    Answer. Response was not provided at the time of publication.
    Question 8. What are your views on the role of detection canines in 
responding to catastrophes?
    Answer. Response was not provided at the time of publication.
    Question 9. Do you believe we have enough canine teams for the 
homeland security mission? If not, how many should DHS acquire?
    Answer. Response was not provided at the time of publication.
    Question 10. Based on your experience, what recommendations do you 
have to develop training and certification standards for detection 
canines?
    Answer. Response was not provided at the time of publication.
 Questions From Chairman Christopher P. Carney for William O. Jenkins, 
    Jr., Director, Homeland Security and Justice Issues, Government 
                         Accountability Office
    Question 1. Based on your years of work, is there a time when FEMA 
was more successful at working within the interagency? If so, when was 
it, and what do you think was different then?
    Answer. Response was not provided at the time of publication.
    Question 2. Do you agree that a basic ``roles and 
responsibilities'' document like the NRF is important? If so, why? Do 
you think it would have been useful in the days immediately before and 
after Katrina?
    Answer. Response was not provided at the time of publication.
    Question 3. What is the impact on State, local, and tribal 
governments when interagency disputes break out during disaster 
preparedness and response?
    Answer. Response was not provided at the time of publication.
    Question 4. Mr. Jenkins, in your testimony you talked about DHS and 
FEMA working together to develop the Integrated Planning System. From 
what you've seen, are DHS and FEMA coordinating well in this area, or 
have you seen problems?
    Answer. Response was not provided at the time of publication.
Questions From Ranking Member Mike Rogers for William O. Jenkins, Jr., 
      Director, Homeland Security and Justice Issues, Government 
                         Accountability Office
    Question 1. Would you please elaborate on how direct-line authority 
with respect to DHS operations centers would strengthen not just 
departmental coordination but also interagency coordination efforts?
    Answer. Response was not provided at the time of publication.
    Question 2. Based on your review, do you believe the current 
coordination among departmental operations centers is sufficient to 
avoid unnecessary duplication or confusion in the response to a 
catastrophic incident?
    Answer. Response was not provided at the time of publication.
    Question 3. According to your work reviewing DHS, in which areas do 
you believe the Department has been most effective in leading national 
preparedness efforts? Has the Department been more effective in leading 
preparedness efforts at the Federal level as opposed to the State or 
local level?
    Answer. Response was not provided at the time of publication.
    Question 4. In what areas of needed capabilities are we as a Nation 
most prepared for a catastrophic disaster and why? In what areas are we 
least prepared and why?
    Answer. Response was not provided at the time of publication.
    Question 5. Do you believe that DHS is prepared for the 2008 
Hurricane season?
    Answer. Response was not provided at the time of publication.
    Question 6. What is your assessment of the roles and 
responsibilities of the Principal Federal Official (PFO) and Federal 
Coordinating Officer (FCO)? Do you believe these roles have been 
sufficiently clarified? Do you think DHS is taking the necessary steps 
to ensure that State and local first responders and emergency 
management personnel are aware of the distinctions in the positions?
    Answer. Response was not provided at the time of publication.
    Question 7. What do you believe are DHS' greatest challenges in 
effectively preparing and responding to catastrophic disasters?
    Answer. Response was not provided at the time of publication.
    Question 8. What are your views on the role of detection canines in 
responding to catastrophes?
    Answer. Response was not provided at the time of publication.
    Question 9. Do you believe we have enough canine teams for the 
homeland security mission? If not, how many should DHS acquire?
    Answer. Response was not provided at the time of publication.
    Question 10. Based on your experience, what recommendations do you 
have to develop training and certification standards for detection 
canines?
    Answer. Response was not provided at the time of publication.
Questions From Chairman Christopher P. Carney for Christine E. Wormuth, 
 Senior Fellow, International Security Program, Center for Strategic & 
                         International Studies
    Question 1. Can you offer some historical examples of when 
interagency coordination has worked well to accomplish common goals? 
What lessons can be taken from these examples and applied to the 
present day?
    Answer. Historically, there are examples of constructive 
interagency coordination, although there are more historical examples 
of cases where interagency cooperation has struggled and has not been 
effective. Some positive examples of successful interagency 
coordination in the past include the CORDS experience during the 
Vietnam War, the role of the National Economic Council in integrating 
international trade policy, and Operation Unified Assistance, the 
interagency effort to provide humanitarian relief in the wake of the 
Indian Ocean tsunami in 2004-2005.
    In the case of CORDS, the office of Civil Operations and 
Revolutionary Development Support, this was a case where after multiple 
efforts to try to coordinate the myriad U.S. pacification programs 
during the early years of the Vietnam War, President Johnson finally 
appointed a single civilian manager with authority over all of the 
agency personnel and programs in Vietnam engaged in conducting 
pacification efforts and development assistance. The head of CORDS was 
second in the military chain of command and had unprecedented ability 
as a civilian to leverage the resources of the U.S. military. 
Appointment of a single civilian manager with authority over the full 
range of agencies in the field seems to have been a major element of 
the success of the interagency CORDS effort.
    The National Economic Council during the Clinton Administration is 
another example of a successful interagency coordination process. Under 
the leadership of Robert Rubin, the NEC and its staff were able to work 
very closely and successfully with the National Security Council and 
the Cabinet agencies in the NEC to develop coordinated approaches to 
major international trade issues such as the effort to pass NAFTA, and 
to manage international economic crises such as the Latin American, 
Asian and Russian financial crises in 1997 and 1998. The effectiveness 
of the NEC during this time appeared to flow from the personal 
confidence President Clinton had in Robert Rubin, as well as Rubin's 
willingness and ability to work within the formal structure of the NEC 
to leverage the capabilities of all of the major economic players in 
the U.S. Government.
    As part of its larger effort to examine prospects for future 
interagency reform, the Project on National Security Reform, under the 
auspices of the Center for the Study of the Presidency, is developing 
an extensive set of case studies of interagency cooperation. When 
complete, these case studies may shed additional light on this 
question.
    Question 2. Based on your work and experience, what are the 
friction points that prevent interagency cooperation? Put differently, 
what is it that makes people unable to work together towards what seems 
to the rest of the world to be an obvious common goal?
    Answer. In my experience, there are numerous obstacles to 
interagency cooperation, though they are not insurmountable. Some of 
these obstacles are structural, such as the role of the White House and 
the stove-piped nature of the executive branch, and some of these 
obstacles are substantive, such as disagreements over policy or 
personality conflicts.
    In terms of structure obstacles, interagency cooperation is often 
greater when the White House plays a strong role in the policy 
development process as well as in overseeing policy implementation. An 
engaged National Security Council and/or Homeland Security Council 
staff can make a big difference in ensuring that the various members of 
the interagency cooperate effectively, and can often help resolve 
differences of opinion among Cabinet agencies. Conversely, if the White 
House is not sufficiently engaged in major interagency issues, 
cooperation can suffer, either because agencies are unaware of the full 
range of activities underway and have no way to gain this situational 
awareness, or because substantive disagreements over policy are allowed 
to fester. Looking from the bottom up, the stove-piped nature of the 
executive branch is often another structural impediment to effective 
interagency cooperation. In many instances, agencies may not be opposed 
to working together on a particular policy, they simply may be unaware 
of activities other agencies have undertaken that are relevant to their 
work. Once again, the NSC and HSC staffs can play a key role in helping 
to break down these stovepipes by bringing interagency stakeholders 
together to share information and coordinate policies and programs.
    Substantive obstacles can also impede interagency cooperation. Many 
of the most severe cases of insufficient interagency cooperation stem 
from disagreement in the interagency over the direction of a particular 
policy or program. In some cases these kinds of disagreements are 
strictly over the content of a particular policy, although policy 
differences are often grounded in the differing perspectives of the 
various Cabinet agencies. Tensions between the Departments of State and 
Defense during the period of preparation to invade Iraq, and in the 
aftermath of the initial invasion, have been well documented. There is 
no question that the differing perspectives and institutional equities 
of the two departments ultimately impeded the ability of the 
interagency to develop and implement policy toward Iraq, particularly 
because these differences were left unresolved even as the interagency 
collectively faced major decisions in the early years of the Iraq 
operation.
    Finally, personality conflicts--which are often closely linked to 
differences of view on policy matters and bureaucratic imperatives--can 
be a significant impediment to interagency cooperation. It can be 
significantly more difficult to promote interagency cooperation when 
major players in a specific interagency issue are unable to work 
together because of personality differences. The reality of the role 
personalities can play is another reason why it is essential to have 
leadership in the White House that is willing to intercede at key 
points and ensure that despite personal disagreements, key officials 
work together toward common administration goals.
    Question 3. Do you agree that a basic ``roles and 
responsibilities'' document like the NRF is important? If so, why? Do 
you think it would have been useful in the days immediately before and 
after Katrina?
    Answer. A basic ``roles and responsibilities'' document like the 
National Response Framework is important. In my view, the NRF outlines 
how the Federal Government will work together as an interagency, as 
well as with State and local governments, and to a lesser degree with 
the private sector and non-governmental organizations, to respond 
effectively to a national emergency. The NRF describes in broad terms 
the roles of each level of government and describes what organizational 
structures will be established during a major event to manage an 
incident. While the NRF does not address specific types of scenarios, 
it does usefully provide an overall description of the broad framework 
for incident management cooperation at a national level. In essence, 
the NRF provides a common operating framework for all levels of 
government that will serve as the template for intergovernmental 
cooperation during a crisis. To have any hope of unity of effort in the 
future for incident management, the Nation needs to have this framework 
in place, and, more importantly, all stakeholders must be familiar with 
the framework and their respective roles relative to other actors.
    Although the current NRF is still not optimized in my view, it is 
clearer and easier to understand than its NRP predecessors. To be fully 
effective, the NRF should be complemented by a set of interagency plans 
at the Federal level that provide more specific information about what 
kinds of capabilities the Federal Government will bring to bear for 
different kinds of potential incidents, how quickly those resources can 
be placed on-scene, and how the Federal capabilities will integrate 
with State, local, and private sector/non-governmental organization 
capabilities.
    The predecessor to the NRF, the National Response Plan, was in 
effect prior to Hurricane Katrina, although it was a recently 
promulgated document at the time and was substantially different from 
its predecessor, the pre-9/11 Federal Response Plan. As a result, many 
stakeholders in the emergency management community, and particularly 
senior officials, were not very familiar with the basic concepts 
outlined in the NRP when Hurricane Katrina made landfall. While greater 
familiarity with the NRP would not have solved all of the problems 
associated with the response to Hurricane Katrina by any means, in my 
view, if more officials had been familiar with the NRP at the time, the 
response might have gone somewhat more smoothly. In particular, DHS 
might have declared an Incident of National Significance more quickly, 
which probably would have sped the deployment of Federal assistance of 
the Gulf Coast.
    At the same time, the 2004 NRP was a very lengthy, complicated 
document and some of its core concepts reflected unresolved 
bureaucratic issues such as the role of the Principal Federal Official 
relative to the Federal Coordinating Officer and the role of the FEMA 
Director relative to the Secretary of Homeland Security. Even if more 
senior officials had been familiar with the NRP prior to landfall, many 
of the disagreements about roles and responsibilities might still have 
occurred because they were inherent in the NRP at the time.
    Question 4. Ms. Wormuth, in your written testimony you say that 
there is little to show from DHS in terms of concrete plans after 2 
years of work. Could you expand on this--what would you expect or hope 
to see at this point?
    Answer. Given that the interagency approved the fifteen National 
Planning Scenarios in late 2004 or early 2005, and established the 
Incident Management Planning Team in 2006, it is disappointing that the 
Federal Government in June 2008 still does not have any approved 
interagency operational plans corresponding to the fifteen scenarios. 
Given the critical importance of such plans to the ability of the 
country to prepare itself for a future domestic catastrophe, I would 
expect that 2 years after the formation of an interagency team to 
develop operational plans, the interagency would have completed at 
least some of the plans and secured their approval.
    Instead, my understanding is that a small number of plans are 
pending with the Homeland Security Council and have been pending for 
many months. It is not clear why these plans remain in only draft form. 
It is also unclear why, if the plans are not satisfactory from a 
substantive perspective, the HSC has not sent them back to DHS for 
revision. Dissatisfaction with the draft plans may be part of the 
reason the HSC drafted and published Annex I to HSPD-8, which directed 
DHS to develop a new Integrated Planning System. By establishing an 
integrated planning process for use across the interagency, the HSC and 
DHS seemed to be seeking to put a framework in place that would guide 
future planning and improve the quality of future planning efforts.
    Much of the energy in the planning process in the last year or so 
has been spent on drafting the IPS. I believe the IPS has been approved 
by the HSC, or is very close to approval. At the same time, it is not 
clear what will happen to an IPS, even if it is approved by the Bush 
Administration before the end of its term.
    From an outside perspective, it appears that despite the dedicated 
efforts of many individuals across the interagency, but particularly 
within DHS, the planning process has been significantly and negatively 
affected by a number of factors. First, developing integrated 
operational plans is inherently an interagency process. Hence, to be 
successful, the IMPT needed considerable support from the HSC and its 
staff, and it is not clear sufficient support and engagement was 
provided. Second, inside DHS, the planning process has often been 
bogged down in bureaucratic disputes between FEMA and the Directorate 
of Operations--and prior to PKEMRA, between FEMA and the Under 
Secretariat for Preparedness. Third, it is not clear that the most 
senior levels of DHS have taken sufficient interest in the planning 
process, failing to resolve intra-DHS disagreements about planning 
roles and responsibilities.
    Question 5. You suggest that conceptualizing disaster response and 
preparedness around the Stafford Act is limiting. Could you expand on 
this, identify some situations that you think the Stafford Act does not 
address well, and tell us what kind of changes you think are necessary?
    Answer. The Stafford Act was written long before the September 11 
attacks and recognition that the United States is facing the threat of 
an incident involving weapons of mass destruction. As such, it is not 
clear that the mechanisms in the Stafford Act will be sufficient to 
manage the interaction of the Federal Government with State and local 
governments during a truly catastrophic incident. The fundamental 
approach outlined in the Stafford Act is that local and State 
governments only seek Federal assistance once State and local 
capabilities are overwhelmed. Once State and local capabilities are 
overwhelmed, the governor of a State can formally request assistance 
from the Federal Government through FEMA, and FEMA in turn will 
distribute requests for assistance to the relevant Federal agencies as 
appropriate. The Stafford Act system is fundamentally a ``pull/push'' 
system.
    In a catastrophe--an event that includes massive loss of life, 
economic damage over a wide area and/or disruption severely affecting 
the population, to include severe disruption of Government functions--
there almost certainly will not be time to follow the very linear 
processes outlined in the Stafford Act. While the Stafford Act works 
well for the many ``typical'' disasters the United States experiences 
every year such as wildfires, tornadoes, hurricanes and earthquakes, 
the ``pull/push'' system does not seem optimized for scenarios that 
could involve the detonation of a nuclear device, the release over a 
wide area of chemical or biological agent, or even the simultaneous 
detonation of multiple radioactive dispersal devices (RDDs or ``dirty 
bombs'').
    In my view, the Federal Government should explore with State 
Governors how to speed up the provision of Federal assistance during a 
true catastrophe. The Stafford Act already authorizes the Federal 
Government to deploy Federal assistance in the absence of a request 
from a Governor, and States that coordinating with the State in this 
circumstance should not impede the rapid deployment or use of critical 
resources during a major disaster. However, as a matter of policy, the 
NRF does not allow the Federal Government to deploy Federal resources 
to an actual incident site in the absence of a request from a Governor. 
At a minimum, DHS and State Governors should explore whether this 
policy should be changed for catastrophic events.
    A more expansive approach would be to consider whether there is a 
need for an analogue to the Stafford Act that would apply specifically 
to how the Federal Government interacts with State and local 
governments during catastrophic events. Some have suggested that the 
existing Defense Against Weapons of Mass Destruction Act could be 
amended to ensure that the Federal Government has appropriate 
authorities and funding mechanisms to deploy assistance at the earliest 
possible point in a catastrophe, regardless of whether a formal request 
for assistance has been made at the State level. Amending this act 
could include establishment of provisions that would describe in 
greater detail how to balance the sovereign rights of the States with 
the responsibilities of the Federal Government during a catastrophe. 
This is a very sensitive political issue that is grounded in the 
American form of federalist government and our Constitution, and hence 
any efforts to shape new authorities for the Federal Government during 
a catastrophe should be a joint effort between the executive branch, 
Congress and State governments.
  Questions From Ranking Member Mike Rogers for Christine E. Wormuth, 
 Senior Fellow, International Security Program, Center for Strategic & 
                         International Studies
    Question 1a. In your prepared statement (p. 8) you state that ``DHS 
has many internal challenges, but a major external drag on its 
effectiveness and its ability to prepare for future catastrophes is the 
byzantine oversight structure it faces in Congress.''
    Could you please elaborate on the need to streamline congressional 
oversight of DHS?
    Answer. Reform of the congressional oversight structure for DHS is 
necessary both to improve the ability of Congress to conduct its 
oversight function and to enable DHS senior officials to strike an 
appropriate balance between executing core DHS functions and being 
responsive to members of Congress. Due to how Congress is organized to 
oversee DHS, there is not a true ``center of gravity'' in the House or 
Senate for homeland security issues. The committee structure makes it 
difficult to develop a core cadre of Members of Congress with a deep 
understanding of homeland security issues and programs. Major homeland 
security policy issues are frequently resolved in less than optimal 
ways due to battles over committee jurisdictions. Achieving coherence 
in the DHS budget, both from the perspective of Congress and the 
perspective of the Department, is very difficult because the DHS budget 
is spread through so many different appropriations bills. For all of 
these reasons, there is a strong need for congressional reform in this 
area.
    Question 1b. What do you think would be an ideal starting point for 
the Congress to both streamline and maintain effective oversight?
    Answer. In my view Congress would be better able to fulfill its 
oversight responsibilities vis-a-vis DHS if there were a single 
authorizing committee with oversight over DHS in both the House and in 
the Senate. In a similar vein, it would be useful to centralize the 
appropriations for DHS in a homeland security appropriations 
subcommittee, rather than dividing up the budget for the Department 
among multiple appropriations bills and subcommittees.
    Question 2. In your prepared statement (p. 9) you state ``this 
incredibly complicated oversight structure undercuts the effectiveness 
of the Federal homeland security enterprise in a number of ways.''
    Could you please elaborate on that statement, and discuss how the 
effectiveness of Federal homeland security efforts are compromised by 
the problematic issue of extensive congressional oversight?
    Answer. There are multiple ways in which the current congressional 
structure to oversee DHS undercuts the effectiveness of the Federal 
homeland security enterprise. As noted above, the diffusion of 
oversight responsibilities across multiple committees in Congress for 
DHS means that in many cases, resolution of homeland security policy 
issues is driven as much by committee jurisdictional equities as by the 
merits of the particular issue. Because the current committee structure 
has not encouraged development of a core, cohesive group of Members of 
Congress with deep knowledge of these issues, congressional guidance 
and oversight is likely not as strong as it could be.
    In addition to this dynamic, the diffusion of the DHS budget across 
multiple appropriations bills and committees makes it more difficult to 
develop a coherent DHS budget over time, and to oversee DHS programs 
and provide guidance for those programs in a coherent and consistent 
fashion. As a new Cabinet agency built from 22 separate agencies, DHS 
is already struggling to integrate and cohere as a Federal department. 
The fact that DHS components can go to a variety of congressional 
committees if they are unhappy with a particular policy decision to try 
to seek relief has not made it easier for the Secretary of DHS to 
mature the Department. In a similar vein, because there are many 
different committees and subcommittees with oversight over some part of 
DHS, guidance coming from Congress can often be conflicting or 
redundant.
    Question 3a. In your prepared statement (p. 9) you state that 
``another dramatic reorganization of DHS would be among one of the 
worst ways to try to improve the Nation's preparedness. Major 
structural reforms right away would be highly disruptive, painfully 
time-consuming and at the end of the day would probably yield little in 
the way of results.''
    What do you believe would be the effects of yet another 
reorganization of the Department?
    Answer. It is not at all clear that reorganization would address 
the core challenges facing the Department. Reorganization could well be 
an exercise in rearranging the deck chairs on the Titanic. The problem 
with the Titanic was not the arrangement of its chairs, but rather that 
it had a huge hole in its side. In a similar vein, creating yet another 
DHS organizational chart will be like moving the deck chairs instead of 
patching the hole. DHS needs strong leadership, consistent support and 
guidance from the White House, and the chance to consolidate its 
disparate components into a coherent whole--something that is very hard 
to do when the Department itself is not even physically located in one 
place. Another major reorganization would mean that DHS senior 
officials and line personnel spend many hours focusing on 
organizational issues such as establishing new roles and 
responsibilities, divisions of labor, job descriptions and so on, 
rather than working on the core substantive challenges facing the 
Department of Homeland Security.
    In addition, another reorganization is very likely to further 
weaken morale and employee satisfaction, which is already very low 
relative to other Federal agencies. Another reorganization also is 
likely to make it more difficult for the next administration to attract 
new talent to DHS, because the ``best and the brightest'' will be 
deterred from taking jobs at DHS because there will be so much 
uncertainty about how DHS components will relate to each other, which 
offices have what responsibilities etc. Moreover, a major 
reorganization is also likely to make it more difficult for external 
stakeholders to work effectively with DHS at the outset of the new 
administration, because outside stakeholders will not have a clear 
understanding of who are their counterparts and which offices have 
responsibilities for their issues.
    Question 3b. Do you believe that another reorganization of the 
Department would significantly impede DHS from fulfilling its 
preparedness mission?
    Answer. Yes, I do believe a major reorganization at the outset of a 
new administration, if it has a significant impact on FEMA and other 
parts of DHS with preparedness responsibilities could significantly 
impede DHS's preparedness efforts. In my view, a major reason DHS has 
not made more progress to date in the area of preparedness is the 
continuing reorganizations of DHS and the extensive bureaucratic 
skirmishing between FEMA, the Under Secretariat for Preparedness (and 
its predecessors ODP and OSLGC), and the Directorate for Operations. 
While the current organizational structure of DHS is not perfect, in my 
view the next administration would be better served to consolidate the 
existing structure of DHS, let nascent processes and organizational 
relationships mature for at least a year, and then determine whether 
additional organizational reform is truly necessary.
    Question 3c. Considering the history of large scale mergers of 
Federal agencies, such as the Department of Defense, how critical is it 
for DHS to be allowed time to mature before it is subjected to another 
structural shake-up?
    Answer. As I noted in my testimony, it took DoD 40 years to mature 
from the War Department into the Defense Department. The Goldwater-
Nichols Act passed in 1987, but it took another 20 years for these 
reforms to reach their full potential. If the development of DoD is any 
guide, it will take many years for DHS to transform from a 
conglomeration of 22 different agencies into a single, coherent Federal 
agency. Given the importance of the DHS mission, it is important that 
the DHS leadership do everything it can to accelerate its bureaucratic 
maturation, but at the same time, one has to be realistic about how 
quickly this transformation can take place. It is not clear that a 
significant reorganization every 2 years or so is the best way to 
accelerate the development of DHS given what is realistic to expect in 
terms of establishing a brand new Federal agency with a complex and 
difficult mission.
    Question 4. What are your views on the role of detection canines in 
responding to catastrophes?
    Answer. While canines make an important contribution to the 
homeland security mission, helping to detect explosives, narcotics, and 
other prohibited items from entering our borders or damaging critical 
infrastructure, I am not an expert on the role of detection canines. As 
such, I think it would be inappropriate for me to comment in detail on 
their present and future contributions to catastrophic response 
efforts.
    Question 5. Do you believe we have enough canine teams for the 
homeland security mission? If not, how many should DHS acquire?
    Answer. Please see above answer.
    Question 6. Based on your experience, what recommendations do you 
have to develop training and certification standards for detection 
canines?
    Answer. Please see above answer.
    Once again, it was a pleasure appearing before your committee.
Questions From Chairman Christopher P. Carney for James M. Walker, Jr., 
           Director, Alabama Department of Homeland Security
    Question. What is the impact on State and local governments when 
interagency disputes break out during disaster preparedness and 
response?
    Answer. At the State and local level, the best way to mitigate 
disputes is through an aggressive training and exercise program that 
identifies points of friction in a training environment, and not during 
an actual event. Often, where we cross wires is in the clear 
delineation of a chain of command. A concern that exists in Alabama 
and, I believe, in other States, is the notion that the Federal 
Government is going to take control during or after a disaster. That 
would not work in Alabama. We intend to execute the way we train, with 
the Governor of Alabama statutorily empowered to lead the State through 
a disaster. The role of the Federal Government is to provide the 
support the Governor requests, and not to do his job for him.
  Questions From Ranking Member Mike Rogers for James M. Walker, Jr., 
           Director, Alabama Department of Homeland Security
    Question 1a. In an article from Federal Computer Week that you 
included in your prepared statement, it states that ``the Federal DHS 
is interested and is working with Alabama's team to develop a pilot 
program on a national scale.'' (p. 25)
    Could you please discuss your involvement with DHS to develop a 
pilot program? Are there any developments on working to roll out 
Virtual Alabama on a national scale? How could DHS use this program?
    Answer. For the past year or so, the Alabama Department of Homeland 
Security has been working with the Science and Technology Directorate 
at DHS. Specifically, we want DHS to embrace Virtual Alabama as a 
national best practice and help push it out to other States and 
territories. DHS is not structured to capitalize on good technology 
ideas developed outside of its organization. For DHS to apply Federal 
resources for innovative ideas the requirement must come from a 
directorate inside DHS. However, we are making some headway and we 
intend to develop a regional pilot for Gulf Coast States within the 
next year or two.
    Question 1b. Do you believe that Virtual Alabama could serve as a 
model for other States to use?
    Answer. Yes. The Virtual Alabama team has worked aggressively in 
its outreach efforts through national conference, invitational 
requests, conferences, and meetings with Federal agencies. In the past 
12 months the team has met with the Federal Emergency Management Agency 
Region IV, Federal Highway Administration, Department of 
Transportation, Small Business Administration, NORAD/NORTHCOM, 
Environmental Protection Agency, DHS S&T/G&T, Health and Human 
Services, NASA, Federal agency representatives at Center for Excellence 
in Government, National Academy for Public Administrators, and National 
Center for Missing and Exploited Children.
    Question 1c. Have you worked with any other States in trying to 
export the capabilities of Virtual Alabama to their respective States? 
If so, which ones?
    Answer. Yes, the Virtual Alabama program has been viewed as a model 
for other States, several of which have expressed interest in the 
initiative to equip their emergency responders with a similar database 
of location information and the visualization tools to assist their 
efforts to safeguard the general public. In July 2007, Google entered 
into an agreement with the State of Louisiana on a similar project for 
that State's emergency responders. The State of Louisiana asked Alabama 
for permission to copy the concept for their State and immediately 
began the implementation of Virtual Louisiana. To date, the Virtual 
Alabama team has met with Governor's offices and Departments of 
Homeland Security in the following States: California, Mississippi, 
Tennessee, Michigan, Kentucky, Iowa, Illinois, Hawaii, Oklahoma, Texas, 
Nebraska, Indiana, Arizona, Florida, Pennsylvania, Nevada, and New York 
City. A number of States are in the procurement phase and announcements 
are pending. Wide-spread interest continues across the country.
    Question 2a. In your prepared statement (p. 9), you state that 
``Alabama has an aggressive public outreach and citizen preparedness 
campaign called Ready Alabama.''
    Could you please elaborate on the campaign and how it is being 
implemented in Alabama?
    Answer. Ready Alabama is an aggressive public outreach and citizen 
preparedness campaign. Ready Alabama challenges individuals to ``Be 
Informed, Be Involved, Be Ready.'' This message is delivered via 
multiple venues and programs in order to ensure every Alabamian 
receives preparedness information.'' The overarching goal of our 
program is to promote personal responsibility on the part of our 
citizens.
    Ready Alabama is a portfolio of programs that encourages 
individuals to engage in citizen service by becoming volunteers in 
disaster preparedness and response, pursuing additional emergency 
training, creating family communications plans, building emergency 
supply kits, knowing evacuation measures, and other relevant 
information. The components of Ready Alabama are Be Ready Day, Be Ready 
Kids, Be Ready Business, Be Ready Baby, Be Ready Seniors, Be Ready 
Camp, and Be Ready Sunday. This campaign has been highlighted by the 
Cable News Network (CNN), international Homeland Security journals, by 
the President in the 2008 President's published report to Governors 
during the National Governor's Association (NGA) meeting, and in the 
President's 2008 published report to the Nation on the Faith-Based and 
Community Initiative.
    More information is available at www.readyalabama.org.
    This campaign is combined with the Alabama Citizen Corps program. 
It is funded through DHS grant dollars.
    Question 2b. Do you believe that this campaign will allow citizens 
to be better prepared to cope and respond in the next natural disaster 
or major catastrophe?
    Answer. Yes. When you consider professional first responders 
comprise approximately 1 percent of the population, it is imperative 
the average citizen understands his or her personal responsibility to 
prepare, and, if necessary, respond to any type of disaster. By 
preparing citizens Government assets can be more effectively committed 
to serving those who cannot assist themselves. It is important to note 
that during both Hurricanes Ivan and Katrina the State of Alabama did 
not suffer a single storm related casualty in her coastal counties. 
Many of our citizens elected to become part of the response solution 
instead of being part of the response problem. It is incumbent upon 
Government to inform citizens they may need to care for their families, 
and, in a catastrophic event, help their neighbors.
    Question 2c. Do you believe that this kind of readiness campaign 
could serve as a model for other States to use?
    Answer. Yes, and we feel our program is already a model for the 
Nation. Other States are implementing components of the Ready Alabama 
Campaign and duplicating our Citizen Corps Program model. We take great 
pride in documenting and providing other States and municipalities with 
the particulars of our program. We believe the Alabama model provides 
an investment in the present by educating and training our citizenry, 
but also makes important investments in our future. We are training the 
next generation of parents, community leaders, and professional first 
responders by providing a tailored message, and asking them to partner 
with us to spread preparedness information.
    Question 3a. In the past, FEMA pre-positioned emergency supplies in 
multiple locations across the country, but has since consolidated such 
supplies into six distribution centers. Rather than providing all 
supplies itself, FEMA has established agreements with Federal, State, 
non-profit, and private sector organizations, allowing FEMA to serve as 
a National Logistics Coordinator. The goal is to leverage emergency 
services, equipment, and supplies of multiple agencies to more cost-
effectively provide emergency support to disaster-affected areas. The 
change, however, has led to some concern and confusion among State and 
local emergency managers.
    How has FEMA communicated its plan to pre-position emergency 
supplies to State and local emergency managers?
    Answer. It is the State's position that FEMA should develop a 
commodity strategy that is designed to support State level efforts 
first. One national commodity strategy developed and handed down by 
FEMA cannot be applied effectively to all States. The plan fails to 
compensate for each State's current level of capability to, purchase, 
warehouse, distribute, and transport commodities to disaster impacted 
areas. The plan also does not account for each State's pre-event 
contract bid law limitations or timelines to implement pre-event 
contracts.
    Alabama realizes the importance of working with its Federal 
partners to develop effective response plans and strategies, but these 
strategies cannot come from the top down and force the State to 
immediately adapt. All disasters start at the local level and work 
their way up to the top, and plans to respond cannot be developed in a 
vacuum. FEMA's strategy needs to be designed to support State level 
efforts and be based on current State capability. The new commodity 
strategy was not developed in this manner, nor was it introduced in a 
time frame that allows Alabama adequate time to build capability to 
support FEMA's new strategy. The State greatly appreciates FEMA's 
assistance in regards to commodities; however, it is Alabama's position 
that FEMA's new logistics strategy was developed with very little, if 
any, coordination with State response agencies.
    The strategy was formally introduced to the State on May 2, 2008 
only after the Alabama Emergency Management Agency (AEMA) requested a 
meeting with FEMA Region IV representatives to come and explain the new 
process. On May 19, 2008, FEMA headquarters conducted a video 
conference once again explaining the new strategy. Despite the meeting 
and video conference, AEMA was left with more questions than answers on 
how it should be position to support Federal commodity assistance and 
has subsequently asked for FEMA to meet on July 8, 2008 to further 
clarify issues. The Agency was also disappointed that the strategy was 
issued less than a month before the beginning of the 2008 hurricane 
season.
    Because this new strategy was introduced late, Alabama is forced to 
quickly build capability to support FEMA's plan. FEMA also informed the 
State at the May 2 meeting that Alabama needed to rely on pre-event 
commodity contracts with vendors to support the Federal strategy. 
Despite this suggested guidance, FEMA could not clearly explain the 
timeframe that Alabama's pre-event contracts should serve, the 
reimbursement process when commodities are purchased but disaster 
impacts are not realized, nor did they confirm whether or not the State 
had pre-event contract capability currently in place.
    As of this date, Alabama is trying to quickly establish it own pre-
event contract support mechanisms; however, AEMA estimates that it will 
be September 2008 before the contracts will be secured and operational. 
Until the pre-event contract can be established, AEMA must rely on 
unclear levels of FEMA support and State level emergency contract 
capability to purchase commodities only after the Governor issues a 
State Emergency Declaration. During the strategy development process, 
FEMA also failed to recognize the limitations that State bid law 
statutes place upon AEMA to secure commodities. Bid laws only allow the 
State to secure one vender per commodity, and do not allow the State to 
utilize multiple vendors. AEMA is highly concerned that one vendor per 
commodity will not be able to adequately supply needed quantities 
before a disaster strikes.
    Question 3b. Do you have confidence that FEMA's distribution 
centers and its agreements with other agencies will be able to provide 
necessary emergency supplies?
    Answer. At this point we do not have complete confidence. A 
fundamental element of emergency management is to test and exercise new 
plans and strategies. It is the State's opinion that DHS and FEMA 
implemented the commodity strategy without adequately testing or 
exercising it. It's also the opinion of the State that the new 
commodity strategy is based on planning assumptions that were not co-
developed with State input. For example, FEMA's gap analysis as of this 
date shows that Alabama's water requirement for a category 3 hurricane 
is 77 truck loads for the first 72 hours after impact. AEMA has voiced 
multiple times that this model estimate is woefully low and does not 
incorporate actual historical data or local county Point of 
Distribution (POD) capability from past events. AEMA is hopeful that it 
can arrive at common ground planning assumptions with FEMA at an 
upcoming July 8, 2008 meeting. Until agreeable planning assumptions are 
established, AEMA is at the mercy of FEMA's projections.
    Alabama commends FEMA's attempt to reduce wasteful practices; 
however, the new commodity strategy may only be shifting the problem to 
the State level. For example, if AEMA decides to purchase commodities 
72 hours in advance of a major hurricane to support FEMA's strategy, 
what happens if the storm shifts and does not impact the State? Alabama 
will be stuck with large quantities of commodities without the 
capability to store them in temperature controlled warehouses. These 
purchased commodities will ultimately decay and expire if not properly 
stored. The new strategy has failed to recognize this as well. AEMA 
asks that DHS and FEMA provide grant funding to help the State build 
warehousing infrastructure to store disaster supplies.
    Alabama is also continuing to ask FEMA to support its requests to 
pre-stage 72 hours worth of water and MRE's in the State until AEMA has 
a chance to implement exercised and tested pre-event contracts that are 
proven to work. Providing pre-staged commodities in-State is also a 
win-win situation for all until the new strategy is proven and 
adequately tested by a sizable disaster event.
    Question 4. What are your views on the role of detection canines in 
responding to catastrophes?
    Answer. Detection Canines are a vital support element for Urban 
Search & Rescue Teams (USAR). Often, detection canines are a 
requirement for USAR teams that the Federal Emergency Management Agency 
(FEMA) requests during disaster. As you are aware, Alabama has a high 
potential to receive storm surge that is associated with a hurricane. 
Historically, storm surge has proven to have the highest potential to 
damage property and cause loss of life. Alabama must be prepared to 
implement a highly effective Search and Rescue Mission over a large 
area in the event that a hurricane impacts our coastline or a tornado 
strikes a densely populated area. In order to do this, detection 
canines will play an extremely important role helping first responders 
locate injured and deceased victims.
    Question 5. Do you believe we have enough canine teams for the 
homeland security mission? If not, how many should DHS acquire?
    Answer. My sensing is we are not utilizing canines to the fullest 
extent possible. Not only are canines useful in recovery operations, 
they are also invaluable in detection operations, search and rescue, 
and as a deterrent to crime and criminal activity. In many areas, 
canines are not an affordable option because they are expensive to 
train and maintain. That said, many areas do not have requirements for 
full-time canines. For areas that can afford canines and use them 
regularly, they are an incredible resource. Working through a mutual 
aid system, jurisdictions that do not have canines can request canine 
assistance for isolated or specific missions. A challenge for homeland 
security leaders is to ensure first responders with a requirement for 
canines can get access to them.
    Question 6. Based on your experience, what recommendations do you 
have to develop training and certification standards for detection 
canines?
    Answer. I do not have a lot of personal experience, but did get a 
chance to learn about and train with dogs in Israel, and in the 
military. One of the important lessons learned is the need for canines 
to work in pairs. Canines, like people, tire and lose their edge after 
extended periods of work. Canines need a partner to work in tandem with 
them.
  Questions From Ranking Member Mike Rogers for Brock Long, Director, 
                  Alabama Emergency Management Agency
    Question 1. Could you please describe your involvement, if any, 
with the Alabama Department of Homeland Security in the implementation 
of both the Virtual Alabama program and the readiness campaign?
    Answer. The Alabama Emergency Management Agency (AEMA) considers 
the ``Be Ready'' public awareness effort as a joint venture with the AL 
Department of Homeland Security (ALDHS) and various other agencies. The 
effort is designed to ultimately prepare the citizens of Alabama by 
establishing one clear and consistent voice from the State. AEMA and 
ALDHS both contribute funding to produce ``Be Ready'' public awareness 
media items. Ultimately, the goal is to ``Brand'' and advertise the 
``Be Ready'' public awareness campaign so that citizens become very 
familiar with its purpose and meaning. Regarding Virtual Alabama, AEMA 
also views this as a joint effort with ALDHS. AEMA is working with 
ALDHS to make Virtual Alabama a ``Common Operating Platform'' that 
displays State disaster resources, hazards and vulnerabilities, and 
other vital data that can be used to provide decisionmakers with total 
asset visibility and situational awareness. AEMA is working with ALDHS 
and other agencies to locate, acquire, and add data layers to virtual 
Alabama to accomplish this.
    Question 2. Do you feel that these programs play a critical role in 
your ability to successfully prepare Alabama for the next major 
catastrophe?
    Answer. As we harness and maximize each program's potential, they 
are playing increasingly larger roles in our preparedness efforts. Both 
programs provide the State with an insightful and adaptable mechanism 
to assist catastrophic disaster response and preparedness efforts. In 
my opinion, there can never be enough funding provided to State and 
local government for the use of public awareness, risk/vulnerability 
identification, and total asset visibility. The ``Be Ready'' campaign 
allows all agencies to combine resources under one venue, and provides 
a framework for multiple agencies to work together to provide public 
awareness guidelines with a clear voice. If we are going to improve 
disaster response, we have to start with educating citizens about their 
risk, vulnerabilities, and proper actions to take. Often, funding to 
support educational awareness programs, such as the ``Be Ready'' 
campaign, are the first to receive budget cuts. Disasters have a 
grassroots nature and impact individual citizens at the local level 
first. These impacted citizens serve as the Nation's first line of 
defense when disaster strikes. We need to do all that we can to 
increase awareness and support to create a prepared citizenry. As 
Virtual Alabama continues to grow, this platform can also be used by 
both Government and citizens to attain detailed information regarding 
hazard vulnerability and potential impacts. Emergency Management has to 
improve efforts and provide citizens with effective mediums to educate 
them about vulnerabilities and proper actions to take when at risk.
    Question 3. Could you please describe the progress, if any, that 
you believe these programs have made in ensuring that Alabama is 
capable of dealing with a catastrophe?
    Answer. AEMA is continuously building Virtual Alabama's capability 
and adapting it to meet the agencies' needs. The tool is being used to 
display comprehensive data layers, such as the location of critical 
facilities, hazard areas, incident management and mutual aid teams, and 
critical facilities. AEMA is also working to use Virtual Alabama to 
understand populations at risk based on forecast, plume data, and other 
real-time threats. For example, Virtual Alabama is used to assist with 
plume modules for the CSEPP communities and can identify populations 
that would be impacted if an unlikely CSEPP incident were to occur. I 
feel this program has done a lot to help prepare Alabama for a 
disaster, but there is still more work to be accomplished.
    Under the ``Be Ready'' campaign, AEMA and ALDHS developed multiple 
Public Service Announcements for television and radio to educate 
citizens about various preparedness actions they should take. These 
PSA's are currently airing around the State.
    Question 4. What are your views on the role of detection canines in 
responding to catastrophes?
    Answer. Detection Canines are a vital support element for Urban 
Search & Rescue Teams (USAR). Often, detection canines are a 
requirement for USAR teams that the Federal Emergency Management Agency 
(FEMA) requests during disaster. As you are aware, Alabama has a high 
potential to receive storm surge that is associated with a hurricane. 
Historically, storm surge has proven to have the highest potential to 
damage property and cause loss of life. Alabama must be prepared to 
implement a highly effective Search and Rescue Mission over a large 
area in the event that a hurricane impacts our coastline or a tornado 
strikes a densely populated area. In order to do this, detection 
canines will play an extremely important role helping first responders 
locate injured and deceased victims.
    Question 5. Do you believe we have enough canine teams for the 
homeland security mission? If not, how many should DHS acquire?
    Answer. Unfortunately, the Alabama Emergency Management Agency does 
not have full visibility of this issue since a national database hasn't 
been established to identify how many canines are available. However, 
it is my understanding that canines, like humans, can tire and work 
less effectively when exhaustion sets in. It is critical to have backup 
support canines during a disaster response that takes an extended 
period of time to locate disaster victims trapped by debris or other 
natural elements (such as mudslides).
    Question 6. Based on your experience, what recommendations do you 
have to develop training and certification standards for detection 
canines?
    Answer. My direct experience with training detection canines is 
very limited and I will defer this question to law enforcement and FEMA 
USAR experienced team members.

                                 <all>

</pre></body></html>
